                Office of
United States
Department of
Agriculture



                Inspector General
Office of
Inspector
General



                Semiannual Report
No. 53

August 2005



                to Congress
                FY 2005-First Half
                     MISSION OF THE OFFICE OF INSPECTOR GENERAL

The Office of Inspector General (OIG) assists the U.S. Department of Agriculture (USDA) by promoting
effectiveness and integrity in the hundreds of programs of the Department. These programs encompass a
broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural
production, agricultural product inspection and marketing, rural development, research, conservation, and
forestry. They impact our citizens, our communities, and our economy.



                   OFFICE OF INSPECTOR GENERAL STRATEGIC GOALS

We have focused 100 percent of our audit and investigative resources on our three strategic goals:

    1. Support USDA in the enhancement of safety and security measures to protect USDA and agricultural
       resources and in related public health concerns.
    2. Reduce program vulnerabilities and enhance integrity in the delivery of benefits to individuals.
    3. Increase the efficiency and effectiveness with which USDA manages and employs public assets and
       resources, including physical and information resources.



                              KEY RESPONSIBILITIES OF THE USDA

    •   administers approximately 300 programs and billions of dollars in grants, loans, and direct benefits.
    •   is responsible for the safety of meat, poultry, and egg products, eaten by millions of Americans each
        day.
    •   leads the Federal anti-hunger effort with food stamps and other feeding programs, which help tens of
        millions of people each day.
    •   leads the effort to prevent the introduction and spread of agricultural diseases and pests, and to
        eliminate or control them when they are found.
    •   is the steward of our Nation’s 193 million acres of national forests and rangelands.
    •   is also the country’s largest conservation agency, encouraging voluntary efforts to protect soil, water,
        and wildlife on the 70 percent of America’s lands that are in private hands (the Nation contains 1.6
        billion acres of private and other non-Federal land).
    •   brings housing, modern telecommunications, and safe drinking water to rural America, which num-
        bers 60 million inhabitants.
    •   is a research leader in everything from human nutrition to new crop technologies that allow us to grow
        more food and fiber using less water and pesticides.
    •   helps ensure open markets for U.S. agricultural products and provides food aid to needy people
        overseas.
i
ii
Contents


Message From the Inspector General .......................................................................................... i

Safety, Security, and Public Health

 Examples of Audit and Investigative Work for Goal 1 ................................................................... 1

Integrity of Benefits and Entitlements Programs

 Examples of Audit and Investigative Work for Goal 2 ................................................................... 6

Management of Public Resources

 Examples of Audit and Investigative Work for Goal 3 ................................................................. 11

Gauging the Impact of the OIG .................................................................................................. 20

Abbreviations of Organizations ................................................................................................. 38




                                                                iii
iv
Safety, Security, and Public Health


OIG Strategic Goal 1: Support                                EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                             WORK FOR GOAL 1
USDA in the enhancement of
safety and security measures to                             Sausage Company Owner Sentenced to Death for
                                                            Murder of Three Government Inspectors
protect USDA and agricultural
resources and in related public                             On June 21, 2000, the owner of a sausage company in
                                                            San Leandro, California, shot and killed two Food
health concerns                                             Safety and Inspection Service (FSIS) compliance
                                                            officers and one investigator who worked for the State
OIG audits and investigations disclose weaknesses,          of California Department of Food and Agriculture while
make recommendations for improvement, and highlight         they were performing their official duties at his facility.
strengths in USDA programs. OIG work helps the              The owner also tried to kill a second State employee,
Department protect consumers and provide a measure          who managed to escape. In October 2004, following a
of confidence that the Nation’s commercial supply of        6-month trial, a jury in Alameda County Superior Court
imported and domestic meat, poultry, and egg products       convicted the owner of homicide with special
is safe, wholesome, and correctly labeled; protect          circumstances (i.e., first-degree murder) for the murder
production agriculture from pests, disease, and other       of the three officers and for attempted murder of the
threats; and protect USDA personnel and property, and       fourth individual. In December 2004, following a
the public from other threats.                              2-month sentencing phase of the trial, the jury
                                                            deliberated for 6 days before recommending that the
In the first half of FY 2005, 23.7 percent of our total     owner be sentenced to death. The judge formally
audit and investigative resources were devoted to Goal      imposed the death sentence in February 2005. This
1, with 99.4 percent of these resources assigned to         investigation was conducted with the San Leandro
critical/high impact work. A total of 93.8 percent of our   Police Department, the Alameda County District
audit recommendations under Goal 1 resulted in              Attorney’s Office, and the Federal Bureau of
management decision within 1 year, and 64 percent of        Investigation (FBI), with the assistance of FSIS.
our investigative cases had criminal, civil, or
administrative action taken. OIG issued four audit          Criminal Prosecution Directed Against One FS
reports under Goal 1 during this reporting period. OIG’s    Manager, Disciplinary Measures Taken Against Five
investigations under Goal 1 yielded 9 indictments, 14       Others for Cramer Fire Deaths
convictions, and about $500,000 in monetary results
during this reporting period.                               On July 22, 2003, two Forest Service (FS) helitack
                                                            firefighters (specially trained in the use of helicopters
                                                            during fire suppression) died in a burnover while fighting
                                                            the Cramer wildland fire on the Salmon-Challis National
                                                            Forest in Idaho. As required by a Federal law (7 U.S.C.
                                                            2270b) enacted recently, the OIG performed an
                                                            independent investigation of the firefighters’ deaths.
                                                            Based on our investigation, the U.S. Attorney’s Office in
                                                            Boise, Idaho, sought criminal prosecution of an
                                                            assistant fire management officer, who had been
                                                            assigned as the incident commander on the Cramer fire.
                                                            This incident commander failed to maintain clear
                                                            command and control at critical points, and key
                                                            personnel lacked situational awareness. In October
                                                            2004, the incident commander agreed to enter into a
                                                            pretrial diversion program for 18 months and accept his
                                                            removal from the FS, effective November 2004. In
                                                            addition, the FS began disciplinary action against five
                                                            other management officials.


                                                                                                                          1
Stopping BSE at the Border—USDA Needs To                         to implement an edit check in its import information
Strengthen Controls Over Canadian Beef Imports                   system to identify ineligible product. (Audit Report No.
                                                                 33601-1-Hy, APHIS Oversight of the Importation of Beef
Following the detection of a Canadian cow with bovine            Products from Canada)
spongiform encephalopathy (BSE or “mad cow disease”)
in May 2003, we examined the Animal and Plant Health             Shortcomings Persist in USDA-DHS Border
Inspection Service’s (APHIS) oversight of the importation        Inspection Activities
of beef products from Canada. Following requests from
four U.S. Senators, we began several reviews in June             In March 2003, APHIS’ frontline inspection
2004 to explore whether USDA did not follow appropriate          responsibilities at the ports-of-entry and border
safety measures, beginning sometime in the fall of 2003,         crossings were transferred to the U.S. Department of
in allowing expanded Canadian beef imports into the              Homeland Security’s (DHS) U.S. Customs and Border
United States.                                                   Protection (CBP). We determined that APHIS—which is
                                                                 still responsible for policies and procedures—could not
After the initial halt of imports, in August 2003 the            ensure that the CBP-administered process for
Secretary announced a list of low-risk products that would       agricultural inspection operations adequately
be allowed from Canada. APHIS also allowed an                    safeguards U.S. agriculture against the entry of foreign
expansion in the type of Canadian facilities that could          pests and diseases. APHIS and CBP have not
produce items for export to the United States. The               developed a process to timely elevate critical issues to
gradual expansion occurred because agency employees              the Secretarial level when mutual agreement cannot be
included products similar to those on the published low-         reached; as a result, key protocols required lengthy
risk list, but APHIS did not communicate this broadly.           interagency negotiation for approval, and critical key
                                                                 oversight functions were delayed until 21 months after
As a result, from August 2003 to April 2004, APHIS issued        the transition. APHIS also needed to work with CBP and
permits for products with questionable eligibility. Contrary     FSIS to expand controls to all incoming shipments of
to publicly stated policy, the agency allowed the import of      meat or meat products to ensure they reach the FSIS I-
products from Canadian facilities that produced both             Houses (inspection houses) for reinspection before
eligible and ineligible products, increasing the possibility     entering commerce.
that higher-risk product could be inadvertently imported.
                                                                 We continue to work with APHIS on a number of
APHIS also issued permits to allow the import of more            unresolved issues from our February 2003 report on
than 63,000 pounds of beef cheek meat with questionable          border and port inspections (Audit No. 33601-3-Ch),
eligibility because the agency did not establish a clear         which disclosed various shortcomings in the inspection
definition for “boneless beef.” Further, we found that           process. Many recommendations remain unresolved
FSIS did not always communicate effectively about the            because of issues arising from the transition; APHIS
eligibility status of beef cheek meat, specifically to import    officials often no longer have direct control or even
inspectors. In addition, APHIS issued 1,155 permits for          knowledge of port operations that were transferred to
the importation of ruminant (e.g., cow, goat) products           CBP. APHIS must coordinate with, and issue policies
from Canada without ensuring that the agency had an              and procedures as needed to, CBP.
appropriate system of internal controls to manage the
process for a suddenly overwhelming volume of requests.          APHIS officials concurred on the need to resolve
From May through September 2004, we identified more              outstanding issues with CBP, but the best means is
than 42,000 pounds of product with questionable                  under discussion. APHIS officials also noted efforts
eligibility.                                                     being undertaken to establish a formal agreement
                                                                 between CBP and FSIS that would include a system for
APHIS generally agreed to institute procedures for               ensuring that all incoming meat shipments are
communicating changes in policy and monitoring the               presented for reinspection. In March 2005, we began a
consistency between agency practice and publicly stated          joint audit (33601-7-Ch) with DHS OIG on this same
policy, as well as to strengthen controls and finalize           issue. (Audit Report No. 33601-5-Ch, APHIS, Transition
procedures to issue and monitor permits. FSIS generally          and Coordination of Border Inspection Activities
agreed to implement controls to communicate the specific         Between USDA and DHS)
eligibility of product when its eligibility status changes and

2
Loopholes Disclosed in Unlicensed Exports of                  August 2002, the warehouse manager directed
Dangerous Biological Materials                                warehouse employees to unlawfully rebox and relabel
                                                              boxes of USDA-inspected chicken products that had
This audit was conducted as part of an interagency (the       become adulterated after a November 2001 ammonia
U.S. Departments of Agriculture, Commerce, Homeland           leak. The warehouse was not a licensed USDA-
Security, Defense, State, and Energy, as well as the          inspected facility and did not have the authority to
Central Intelligence Agency) review to assess whether         repackage or relabel USDA-inspected product. The
the current export licensing process can help deter the       contaminated chicken product was served to
proliferation of chemical and biological commodities. We      schoolchildren in Illinois in November 2002 and is
identified one entity that exported Highly Pathogenic         suspected to have caused illness among at least 170
Avian Influenza (HPAI) to Hong Kong on two occasions          students and 2 faculty members. The plant manager
without obtaining the required license from the U.S.          later attempted to obstruct justice when he lied to
Department of Commerce (DOC). Officials at the entity         investigators and tried to manufacture false shipping
were not aware of the licensing requirement for HPAI,         records. He pled guilty to conspiracy and making false
which is an extremely infectious and fatal disease for        statements. In a subsequent proceeding, the trucking/
chickens. In 1997, a limited outbreak of 1 strain of HPAI     warehouse/distribution company also pled guilty to
in Hong Kong infected 18 people, 6 of whom died.              transporting uninspected and misbranded poultry
                                                              products. Sentencings in both instances are pending.
We found that APHIS had not established controls over
exports of animal and plant pathogens, including listed       Restaurant Owner Sentenced for Smuggling Beef
agents and toxins on the Commerce Control List (CCL),         from Japan, Importation of Which Is Prohibited Due
because USDA does not have regulatory authority for           to Disease Concerns
exports. APHIS’ authority covers only import or
interstate/intrastate transfer of such materials, so any      In January 2005, a Los Angeles restaurant owner was
exporting license issues were referred to DOC.                placed on probation for 60 months, to include 800 hours
However, any violation of either APHIS or DOC                 of community service, after he pled guilty to smuggling
regulations could expose the country to potential             beef from Japan. Under 9 Code of Federal Regulations
biological attacks by terrorists.                             (C.F.R.) § 94, beef from Japan is a prohibited product
                                                              for United States importation due to disease. On two
We therefore recommended that APHIS work with DOC             occasions in 2001 and 2002, inspectors in Anchorage,
to disseminate information regarding CCL export               Alaska, intercepted shipments sent from Japan that
requirements to entities registered with APHIS to help        were manifested as “book,” but upon inspection by
ensure compliance with all controls regarding                 USDA and the United States Customs Service, were
movement of biological agents and toxins that pose a          found to contain approximately 25 kilograms of beef
severe threat to animals and plants. We also                  inside a Styrofoam ice chest. Both shipments were
recommended that APHIS notify DOC of changes to the           addressed to the restaurant owner. Shipping records
list of agents or toxins posing a severe risk to animals or   showed that the restaurant owner had received 13
plants, and work with that agency to help determine           shipments manifested as “book” from the same sender
whether the CCL should be updated. APHIS generally            in Japan in 2001 and 2002. All but one of the shipments
agreed with the findings and recommendations. (Audit          were in the same weight range as the two intercepted
Report No. 33601-4-At, Review of Export Licensing             shipments. The shipper and the restaurant owner were
Process for APHIS Listed Agents or Toxins)                    subsequently indicted for various charges including
                                                              conspiracy and smuggling. An arrest warrant was
Ammonia-Contaminated Chicken Sickens 170                      issued for the shipper, who is still in Japan.
Children, Manager Pleads Guilty to Illegally
Reboxing Product for School Lunches                           Fines and Probation Ordered for Smuggling of
                                                              Misbranded Poultry from Korea
The manager of a warehouse and transportation
company in Illinois admitted that he ordered the              In January 2005, a Los Angeles corporation was fined
uninspected reboxing of adulterated chicken product           $40,000 and placed on probation for 36 months after it
that was intended for school lunches in Illinois. Our         pled guilty to smuggling misbranded poultry products
investigation disclosed that, between June 2002 and           from Korea. In addition, the corporation’s president and

                                                                                                                       3
secretary/treasurer were fined $5,000 each after they          pled guilty to trafficking in endangered species. This
pled guilty to the unlawful sale and transportation of         investigation was conducted jointly with the U.S. Fish
misbranded poultry products. Our investigation revealed        and Wildlife Service. Sentencing is pending.
that the subjects had imported prohibited poultry and
meat food products from Korea on numerous occasions            Consumer Who Placed Pins in Sausage Sentenced
in violation of the Federal Meat Inspection Act and            for Product Tampering
Poultry Products Inspection Act. Between January 1996
and July 1998, they imported more than 123,000                 In January 2005, a Texas woman was sentenced to
pounds of prohibited poultry and meat food products            serve 366 days in prison, followed by 36 months of
valued at more than $240,000. In addition, in 1999, they       supervised release, and was ordered to pay $275 in
imported approximately 420 pounds of prohibited and            restitution after her conviction by a jury. The woman and
mislabeled poultry and meat food products from Korea           her husband alleged they found three straight pins in a
valued at approximately $1,300. Because of Korea’s             summer sausage they purchased at a retail store in
disease status for Hog Cholera, Swine Vesicular                Sealy, Texas. She and her husband initially denied
Disease, Exotic Newcastle Disease, and Foot and                placing the pins in the sausage and provided sworn
Mouth Disease, these products are prohibited from              statements to that effect. The woman later voluntarily
importation.                                                   submitted to a polygraph examination during which she
                                                               confessed to intentionally placing the pins into the
Virginia Man Guilty of Selling Animal Fighting                 summer sausage for monetary gain.
Videos and Books
                                                               OIG Confirms That Agencies Used Biosecurity
A jury found a Virginia man guilty on three counts of          Grant Funding Appropriately
selling across State lines videotapes depicting animal
cruelty. This was the first conviction after a trial in this   During FY 2002, USDA released about $43 million in
type of case. The man sold animal fighting tapes titled        State grants and cooperative agreements for
“Japan Pit Fights” and “Pick-A-Winna” through his              strengthening agriculture homeland security protection.
business. A Federal search warrant served on the illegal       Agricultural Research Service (ARS) funding was used
business resulted in the seizure of books, videotapes,         for developing or improving diagnostic tools for animal
and other dogfighting paraphernalia. The individual            and plant pathogens. APHIS funded agreements for
made at least $50,000 on the sale of the animal fighting       enhancing response capabilities of State and tribal
merchandise. Sentencing was pending at the end of the          governments to foreign animal diseases. The
reporting period. The Pennsylvania State Police                Cooperative State Research, Education, and Extension
assisted in this investigation.                                Service (CSREES) provided funding to develop
                                                               diagnostic and reporting networks for plant and animal
Investigation Breaks Up Conspiracy To Traffic in               pathogens. Overall, we determined that the recipients
Endangered Species                                             used the funds appropriately. In response to our
                                                               recommendations, the USDA agencies agreed that the
An investigation in Minnesota disclosed that from 1998         cited institutions would adjust their financial records to
until 2003, the owners of an animal park licensed under        account for isolated improper charges and that the grant
the Animal Welfare Act, as well as numerous other              recipients would be required to submit timely progress
individuals, sold various animals (e.g., tigers and            and financial reports. The agencies also agreed to
leopards) in violation of the Lacey Act and falsely            establish and document their policies and procedures
represented on APHIS forms that the animals were               for conducting site visits to their grantees to monitor
being donated for no compensation. One of the co-              grant accomplishments. (Audit Report No. 50099-17-
owners of the Minnesota animal park was found guilty at        KC, Biosecurity Grant Funding)
the completion of a 2-day trial of tampering with a
witness and obstruction of justice. This same individual       State Agency Incurs Unallowable, Unsupported
later pled guilty to conspiracy and making false               Costs During Exotic Newcastle Disease Eradication
statements on APHIS forms. At the completion of a
separate trial, the other co-owner also was found guilty       Our review disclosed that APHIS did not act timely to
of conspiracy and making false statements on APHIS             inform the California Department of Food and
forms. Five additional individuals and one corporation         Agriculture (CDFA) whether it would exercise its option

4
to take title to $473,693 worth of equipment purchased      ONGOING AND PLANNED REVIEWS FOR
with award funds. This occurred because CDFA’s failure      GOAL 1
to disclose the purchase of the equipment prohibited
APHIS from retaining title to it. APHIS had worked in        Topics that will be covered in ongoing or planned
conjunction with CDFA, under a reimbursable                  reviews under Goal 1 include:
agreement, to combat the outbreak of Exotic Newcastle        • adequacy of controls to prevent the release of
Disease (END) in southern California from October               sensitive technology (ARS),
2002 to May 2003. END can kill parrots and other exotic      • evaluation of USDA’s progress in enhancing
birds and is particularly devastating to chicken flocks.        agriculture biosecurity through diagnostic and
                                                                reporting networks (ARS/CSREES),
After our management alert of January 2004 informed          • implementation of the Bio-terrorism Act (USDA),
APHIS of the purchase and of its proprietary rights,         • controls over separation of genetically
APHIS informed CDFA of its intention to take title to the       engineered grains (USDA),
equipment. We also determined that CDFA charged              • controls over genetically engineered animal/
unallowable and unsupported costs to the award for              insect research (USDA),
leased office space that went unoccupied for 6 months        • application controls over the National Pathogen
($32,287) and an accident its employees had in an               Inventory (ARS/APHIS),
uninsured vehicle ($5,249). In addition, CDFA charged        • followup on FS security over explosives,
$68,980 for the overtime costs incurred by temporary         • implementation of the Listed Agent or Toxin
workers who replaced those assigned to the END                  Regulation – Phases I and II (APHIS),
project (CDFA would have normally incurred overtime          • the Agricultural Marketing Service’s (AMS)
costs regardless of the END project). We questioned a           National Organic Program,
total of $228,332.                                           • participation in the DHS review of CBP’s
                                                                agricultural inspection activities (APHIS),
APHIS concurred, exercised its option to retain the          • APHIS animal care program – monitoring and
equipment, and is collecting from CDFA any                      enforcement activities,
unallowable and unsupported costs. (Audit Report No.         • FSIS State-Operated Inspection Programs,
33099-10-SF, APHIS, Exotic Newcastle Disease                 • Federal/State cooperative Bovine Tuberculosis
Eradication Project Reimbursable Agreements)                    (TB) Eradication Program (APHIS),
                                                             • controls over Michigan’s TB-Infected Zone
                                                                (APHIS),
                                                             • purchase specification requirements for ground
                                                                beef (AMS),
 MANAGEMENT CHALLENGES ADDRESSED
                                                             • FSIS oversight of the 2004 Quaker Maid meats
 UNDER GOAL 1
                                                                recall,
                                                             • monitoring BSE expanded surveillance program
  • Homeland Security Considerations Should Be
                                                                implementation (BSE Phase II) (APHIS/FSIS),
    Incorporated Into Program Design and
                                                             • controls over BSE sampling, specified risk
    Implementation
                                                                material, and advanced meat recovery (BSE
  • Increased Oversight and Monitoring of Food
                                                                Phase III) (FSIS),
    Safety Inspection Systems Are Needed
                                                             • review of FSIS’ In-Plant Performance System,
  • Controls Over Germplasm Storage Material and
                                                             • FSIS Assessment of the Equivalence of the
    Genetically Engineered Organism Field Testing
                                                                Canadian Meat Inspection System,
    Are Critical to U.S. Markets
                                                             • oversight of the Avian Flu outbreak (APHIS),
                                                             • veterinary certification program (APHIS),
                                                             • AMS certification of processed commodities,
                                                                and
                                                             • egg processing inspection (FSIS).
                                                            The findings and recommendations from these efforts
                                                            will be covered in future semiannual reports as the
                                                            relevant audits and investigations are completed.


                                                                                                                  5
Integrity of Benefits and
Entitlements Programs

OIG Strategic Goal 2: Reduce                                   EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                               WORK FOR GOAL 2
program vulnerabilities and
enhance integrity in the delivery                             Food Stamp and Electronic Benefits Transfer (EBT)
                                                              Fraud Disclosed in Chicago
of benefits to individuals
                                                              • In February 2005, the owner of a small grocery store
OIG audits and investigations were conducted to ensure          was convicted on three counts of wire fraud and
or restore integrity in the various benefit and entitlement     three counts of food stamp benefit trafficking. From
programs of USDA, including a variety of programs that          July 1997 through October 1998, the storeowner
provide payments directly and indirectly to individuals or      redeemed approximately $1.9 million in electronic
entities. These programs support nutrition, farm                food stamp benefits. Financial analysis of the store’s
production, and rural development and involve tens of           bank account disclosed that the storeowner and
billions of dollars in outlays for FY 2005.                     several employees obtained approximately
                                                                $1.4 million in cash from the store’s checking account
In the first half of FY 2005, 45 percent of our total audit     by writing checks to cash and to themselves. The
and investigative resources were devoted to Goal 2,             investigation disclosed that the storeowner conspired
with 89.6 percent of these resources dedicated to               with the store employees and that the cash was used
critical/high impact work. A total of 80.4 percent of our       in thousands of illegal exchanges. Sentencing is
audit recommendations under Goal 2 resulted in                  pending.
management decision within 1 year, and 69 percent of
our investigative cases had criminal, civil, or               • An investigation resulted in a storeowner being
administrative action taken. OIG issued seven audit             convicted of wire fraud and money laundering for his
reports under Goal 2 during the reporting period. OIG           role in defrauding the Food Stamp Program (FSP) of
investigations under Goal 2 yielded 80 indictments, 89          more than $1.1 million. The individual, whose store
convictions, and about $59 million in monetary results          was authorized to participate in the program for a 32-
during the reporting period.                                    month period, conducted the majority of the illegal
                                                                transactions between midnight and 2 a.m. On 1
                                                                occasion, the storeowner processed 220 food stamp
                                                                transactions in succession with as little as 26
                                                                seconds between sales. Sentencing is pending in
                                                                this matter.

                                                              • The owner of a liquor store participated in a scheme
                                                                to defraud USDA by illegally purchasing electronic
                                                                food stamp benefits. The individual redeemed
                                                                approximately $1 million in electronic food stamp
                                                                benefits from October 2000 through October 2002,
                                                                despite the store’s reported annual food sales of
                                                                $139,300. The investigation disclosed that the owner
                                                                purchased food stamp benefits after a store
                                                                employee verified that customers were from the
                                                                neighborhood. The storeowner and his corporation
                                                                pled guilty to food stamp fraud and were sentenced
                                                                to 24 months of probation with the first 12 months to
                                                                be served in home confinement. Furthermore, the
                                                                subject and corporation were ordered to pay
                                                                $485,250 restitution each.




6
                                                                        Disparate Application of MILC Production Caps Led
                                                                        to Payment Inequities

                                                                        When domestic milk prices fall below a specified level,
                                                                        the Milk Income Loss Contract Program (MILC) pays
                                                                        producers on eligible dairy operations, based on their
                                                                        quantity of production. There is no MILC payment
                                                                        limitation, but there is a yearly production cap of
                                                                        2.4 million pounds of milk per dairy operation for
                                                                        payments. A producer may operate either a single dairy
                                                                        operation or multiple operations, each with a separate
                                                                        production cap. Farm Service Agency (FSA) officials
                                                                        informed us that their study of the predecessor Dairy
                                                                        Market Loss Assistance Program (DMLA) had shown
This store in Chicago was used for food stamp trafficking. OIG photo.   differences in the definitions of a “dairy operation” used
                                                                        by various State offices to determine whether producers
Store Owner Convicted in $3.6 Million Food Stamp                        operated single or multiple dairy operations. FSA had
Fraud Scheme in Philadelphia                                            attempted to refine the definition of a “dairy operation”;
                                                                        however, the Office of the General Counsel (OGC)
The owner and the former owner of a small grocery                       advised FSA that the MILC legislation prohibited FSA
store in Philadelphia, Pennsylvania, were convicted for                 from applying to MILC different standards than those
conspiring to defraud the FSP of $3.6 million. The                      that were used under DMLA.
current owner purchased the store for $4,000 and a
Cadillac automobile. Together the former owner and                      Our review of MILC contracts in four States disclosed
new owner purchased EBT food stamp benefits from                        that producers with similar operations located in
recipients for 70 percent of their face value and then                  different States received disparate program payments,
redeemed the benefits for full value through the store.                 e.g., a MILC producer in Pennsylvania received $54,569
To avoid detection, they made bank withdrawals of the                   as a single dairy operation, but the same producer in
cash reimbursement from USDA in amounts under                           California would have received $110,679 as two dairy
$10,000. This scheme continued over a 3-year period                     operations. For three producers in two States, payment
before it was brought to an end. The current owner was                  disparities totaled almost $250,000. Although MILC is
sentenced to 30 months in prison and $2.4 million in                    set to expire in September 2005, legislation has been
restitution. The previous owner died prior to sentencing.               proposed to extend the program until 2007 when
                                                                        Congress plans to consider the next Farm Bill. FSA
Scam Artist Sentenced to Prison For Stealing $1.2                       officials agreed with us that language should be
Million From Dozens of Victims                                          submitted for inclusion in the proposed legislation that
                                                                        would ensure a consistent, nationwide definition of a
Two individuals in Massachusetts receiving food stamps                  “dairy operation” to preclude gross inequities should the
devised a scheme in which they told victims they                        program be extended. (Audit Report No. 03601-10-Ch,
desperately needed money and would repay them                           FSA, Milk Income Loss Contract Program)
double once a fiancé of theirs received a multimillion-
dollar inheritance. Their scam resulted in 47 persons                   RHS Did Not Implement Agreed-Upon Actions for
sending them money in amounts ranging from $100 to                      Unauthorized Rental Subsidy Payments
$710,000, the latter from a cattle rancher in
Pennsylvania. The two individuals also fraudulently                     Our 1999 audit of rental assistance made 12
received $15,000 in food stamp benefits. One was                        recommendations to the Rural Housing Service (RHS),
sentenced to 16 months in jail and ordered to pay $1.2                  while identifying $14.2 million of unauthorized rental
million in restitution to the victims. Sentencing is                    subsidy payments. As of April 2004, no
pending for the other.                                                  recommendations had been implemented. A 2003 audit
                                                                        in Florida found that unauthorized rental subsidy
                                                                        payments ($4.4 million) were continuing, in part


                                                                                                                                 7
because the agency had not implemented our                  sentenced to 7 months in prison, followed by 36 months
recommendations. Subsequently, with the issuance of         of supervised release, and was fined $20,000. The
7 C.F.R. § 3560 (which requires management                  brother was also sentenced in November to 24 months
companies to take more aggressive actions to ensure         of probation and fined $5,000. The guilty plea included
that tenant incomes are accurate and complete) on           criminal forfeiture of 400 acres of land and a house,
February 24, 2005, RHS believes that all necessary          valued at $1.5 million, which had been built with
actions on eight recommendations are complete. The          proceeds from the scheme.
agency has not pursued legislation to obtain wage and
income information of tenants to ensure that they are
eligible for the rental assistance. Apartment managers
need this information to verify the accuracy of rental
subsidy payments. Further, RHS does not record rental
subsidy overpayments as accounts receivable, but
places responsibility on the project owner to account for
and collect them. Consequently, collection tools are not
applied to recover improper payments.

We recommended that RHS implement the 1999 OIG
recommendations, and submit a bill to Congress that
would provide RHS access to all relevant income data
similar to the authority the U.S. Department of Housing
and Urban Development has and would allow RHS to
share the information with apartment managers. We
also recommended RHS require tenants to sign consent
forms to release wage and income information to RHS         This is the house that was forfeited to the Government in the
and apartment managers, as a condition of eligibility for   Mississippi fraud case. OIG photo.
rental subsidies. Finally, we recommended that the
agency account for rental assistance overpayments and
interest credit, and collect and manage them in             Texas Crop Insurance Agent and Loss Adjuster
accordance with Federal requirements. Until new             Sentenced for Fraud
legislation is obtained, we recommended that RHS
assist States in obtaining matching agreements with         Two subjects were sentenced in a case we previously
their State agency responsible for collecting wage and      highlighted in the semiannual report for the first half of
benefit information that include authority to provide       FY 2004. As previously reported, the owner of a crop
apartment managers with the income information. RHS         insurance agency, who also was a producer, was found
agreed with our recommendations and has established         guilty in February 2004 of making false statements and
6 months for implementation. (Audit Report No. 04099-       claims on his 1999 wheat, cotton, and grain sorghum
339-At, Subsidy Payment Accuracy in Multi-Family            insurance policies and indemnity claims. In October
Housing Program)                                            2004, he was sentenced to 41 months in prison,
                                                            followed by 36 months of supervised release, and was
Mississippi Trio Sentenced in $11.2 Million Fraud           ordered to pay $448,000 to the Risk Management
                                                            Agency (RMA) and a special assessment of $2,500. He
To update a case included in the last semiannual report,    was ordered not to directly or indirectly engage in the
sentencings have occurred in the $11.2 million FSA          sale of crop insurance and was excluded from all USDA
fraud conspiracy case involving one of Mississippi’s        programs. In November 2004, the crop loss adjuster,
largest farmers, his brother, and his accountant. They      who conspired with the producer, was sentenced on an
conspired on a partnership scheme, paid others to           earlier guilty plea to one count of conspiracy to make
participate in the scheme, and tried to persuade them to    false claims to USDA. He was sentenced to 24 months
testify falsely. The farmer was sentenced in November       of probation, including 6 months of home confinement,
2004 to serve 60 months in Federal prison, followed by      and was ordered to make restitution jointly and severally
48 months of supervised release, and was ordered to         with the producer in the amount of $447,230, as well as
pay $11.2 million in restitution. The accountant was        pay a special assessment of $100.


8
Iowa Family Pleads Guilty to $3.26 Million Fraud             his medical condition. The U.S. Attorney’s office is
                                                             pursuing civil action to recover additional funds from the
In Iowa, a couple and their son were charged in a 25-        producer.
count indictment with conspiracy to defraud USDA,
conspiracy to commit bankruptcy fraud, conversion, and       Texas Produce Broker Sentenced for Interstate
numerous counts of false statements. The investigation       Transportation of Stolen Property
determined that, in 1997, the married couple made false
statements to a local lending institution and fraudulently   We reported last semiannual period that a produce
received a loan of $1.6 million. From 1998 through           broker in Dallas, Texas, had pled guilty to defrauding
2003, all three individuals made false statements to         the produce industry of over $1 million in perishable
USDA that enabled them to fraudulently receive               produce. The subject admitted to entering into a
$746,700 in program payments from FSA and $912,364           scheme to purchase perishable produce from one
from RMA. The couple hid assets from the U.S.                company using an established unsecured line of credit
Bankruptcy Court by transferring the items to their son.     with the companies in question with no intent to pay,
In January 2005, the husband pled guilty to four counts      and then immediately selling it to another company for a
of conspiracy, the wife pled guilty to conspiracy to make    significantly lower price. He was sentenced in October
false statements, and the son pled guilty to two counts      2004 to 71 months of imprisonment and 36 months of
of false certifications. Sentencing is pending.              supervised release, and was ordered to pay restitution
                                                             of $1,654,975 for defrauding 30 produce and freight
Three Sentenced in Iowa Farm Fraud                           companies in Canada and the United States.

An Iowa farmer directed two individuals to provide false     Montana Lawmen Sentenced to Prison for
statements to FSA and RMA for the purpose of evading         Defrauding FSA
farm program payment limitations. They received
$247,278 from FSA and RMA to which they were not             Sentencing took place in November 2004 in another
entitled. As a result of the investigation, the two          case from the last semiannual report, involving a
individuals entered into pretrial diversion agreements in    Montana sheriff and his deputy who had pled guilty to
which they agreed to pay a consent judgment of               conspiracy to defraud FSA. The sheriff was sentenced
$41,000 and restitution of $79,120. The Iowa farmer          to 6 months in Federal prison and was ordered to pay
pled guilty to a criminal information charging him with      $16,666 in restitution to FSA. The deputy received 36
making false statements to FSA, making false                 months of probation and was ordered to pay restitution
statements to RMA, and concealing assets from the            of $5,141 to FSA. The individuals were fired from their
U.S. Bankruptcy Court. On February 24, 2005, the Iowa        jobs. Both law enforcement officers submitted false feed
farmer was sentenced to 3 months in jail, 3 months of        receipts to FSA in order to fraudulently obtain payments
home confinement, and 36 months of supervised                under the American Indian Livestock Feed Program.
release. In addition, he was ordered to pay a total of
$378,878 in restitution ($131,000 to FSA, $116,000 to        Wisconsin Farmer Sentenced to Jail for Making
RMA, and the remainder to the bank). He was also             False Statements on Collateral
debarred for life from all USDA programs.
                                                             A Wisconsin farmer was convicted of making false
Producer Ordered To Pay $384,000 in Restitution              statements to FSA when he applied for and received a
                                                             $110,000 farm-operating loan. As collateral to secure
A producer in upstate New York was granted several           the loan, the farmer provided FSA with a list of
loans from the Commodity Credit Corporation (CCC) to         equipment that he claimed to own. The equipment
plant crops. He failed to repay the CCC loans with the       actually belonged to the farmer’s father and was
proceeds from the sale of those crops. In an effort to       pledged as security without the father’s knowledge or
avoid liability, he filed for bankruptcy, in a scheme        consent. The farmer was sentenced in February 2005 to
similar to one that he had used in the 1980s to defraud      serve 21 months in prison and ordered to pay more than
USDA of $410,000. He was convicted of the current            $71,000 in restitution.
loan fraud and ordered to pay $384,000 in restitution,
and was ordered to spend 52 weekends in prison due to


                                                                                                                      9
 MANAGEMENT CHALLENGES ADDRESSED                      ONGOING AND PLANNED REVIEWS FOR
 UNDER GOAL 2                                         GOAL 2

     • Risk Must Be Examined and Improper Payments     Topics that will be covered in ongoing or planned
       Minimized Within USDA                           reviews under Goal 2 include:
     • Integrity of the Federal Crop Insurance         • continued monitoring of EBT implementation
       Programs Must Be Strengthened Through              (Food and Nutrition Service (FNS)),
       Improved Quality Control Systems and IT         • State agency corrective action plans to reduce
       Processing                                         FSP improper payments (FNS),
     • Agencies Need To Better Coordinate Program      • the Summer Food Service Program (FNS),
       Delivery and Control – New Challenge            • Special Supplemental Nutrition Program for
     • Improvements and Safeguards Needed for the         Women, Infants, and Children (WIC)
       Rural Multi-Family Housing Program – Agency-       administrative costs (FNS),
       Specific Challenge                              • WIC Program accountability (FNS),
                                                       • reauthorization of FSP retailers (FNS),
                                                       • the Farm Programs Fraud Indicator Study,
                                                       • FSA’s implementation of the Tobacco Transition
                                                          Payment (Tobacco Buyout) Program,
                                                       • implementation of emergency relief programs for
                                                          2004 hurricanes in Florida (FSA/RMA),
                                                       • FSA’s implementation of the Cattle Feed
                                                          Program (nonfat dry milk),
                                                       • FSA’s implementation of the Emergency Feed
                                                          and Livestock Compensation Program,
                                                       • programmatic treatment of crop base on land
                                                          included in conservation easements (FSA/
                                                          Natural Resources Conservation Service
                                                          (NRCS)),
                                                       • FSA’s administration of the prohibitions of farm
                                                          loans for borrowers that have received debt
                                                          forgiveness,
                                                       • Direct and Countercyclical Program payment
                                                          yields (FSA),
                                                       • review to evaluate and validate the zero acreage
                                                          data for insured crops (RMA/FSA),
                                                       • Rural Utilities Service (RUS) Broadband Loan
                                                          and Grant Programs,
                                                       • RHS Single Family Housing (SFH) Guaranteed
                                                          Loan Program,
                                                       • RHS Rural Rental Housing (RRH) Loan
                                                          prepayment and restrictive use agreements,
                                                       • Rural Business-Cooperative Service (RBS)
                                                          implementation of the Consolidated Farm and
                                                          Rural Development Act, and
                                                       • RBS’ implementation of the Value-Added
                                                          Agricultural Product Market Development Grant
                                                          Program.
                                                      The findings and recommendations from these efforts
                                                      will be covered in future semiannual reports as the
                                                      relevant audits and investigations are completed.



10
Management of Public
Resources

OIG Strategic Goal 3: Increase                                EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                              WORK FOR GOAL 3
the efficiency and effectiveness
with which USDA manages and                                  USDA FY 2004/2003 Consolidated Financial
                                                             Statements – Unqualified Opinion
employs public assets and                                    Improvements Still Needed in Financial Management
resources, including physical                                Systems and Quality Control
and information resources                                    The Department and the standalone agencies required
                                                             to prepare their own financial statements received, for
OIG conducted audits and investigations that focused         the third consecutive year, unqualified opinions.
on improved financial management and accountability,         Significant challenges were encountered, however, in
information technology (IT) security and management,         FY 2004 in order for the statements to be issued in
protection of public assets, employee corruption, natural    accordance with the accelerated timeframes. Although
resources, research, and the Government Performance          we rendered an unqualified opinion on the FYs 2003/
and Results Act (GPRA).                                      2004 financial statements, the FY 2003 statements had
                                                             to be restated to correct errors, which increased the
In first half of FY 2005, 31.3 percent of our total audit    ending balance of Unexpended Appropriations by over
and investigative resources were devoted to Goal 3,          $5 billion and decreased the ending balance of
with 96.7 percent of these resources assigned to critical/   Cumulative Results by over $5 billion. Specific errors
high-impact work. A total of 94.9 percent of our audit       included:
recommendations under Goal 3 resulted in
management decision within 1 year, and 73 percent of         • The FS corrected about $383 million for alignment of
our investigative cases had criminal, civil, or                budgetary and proprietary account relationships and
administrative action taken in response to OIG reports.        posting errors; unsupported balances in various
OIG issued 26 audit reports under Goal 3 during the            suspense and deposit clearing funds; Fund Balance
reporting period. OIG investigations under Goal 3              with Treasury and associated custodial liability; and
yielded 13 indictments, 14 convictions, and about              certain revenue transactions;
$2.6 million in monetary results during the reporting
period.                                                      • The Food and Nutrition Service (FNS), NRCS, and
                                                               APHIS corrected about $4.7 billion, $478 million, and
                                                               $311 million, respectively, for improper recognition of
                                                               appropriations used;

                                                             • The Federal Crop Insurance Corporation (FCIC)
                                                               corrected about $1.17 billion for obligations and
                                                               obligated balances carried forward from FY 2002.
                                                               In addition, FCIC changed its accounting policy for
                                                               funds held in escrow for crop insurance losses;

                                                             • CCC corrected about $188 million in amounts for
                                                               intragovernmental costs previously recorded as costs
                                                               with the public; and

                                                             • The Department corrected about $176 million of Non-
                                                               USDA disbursements recorded on its FY 2003
                                                               Statement of Budgetary Resources.

                                                             The Office of the Chief Financial Officer (OCFO) has
                                                             immediate and long-term plans to address most of the
                                                             weaknesses in its financial management systems, and


                                                                                                                     11
USDA recently implemented a Department-wide                  systems were not certified and accredited in compliance
property system. The key audit recommendations               with Office of Management and Budget (OMB) Circular
focused on additional improvements in financial              A-130 (Management of Federal Information Resources).
management and enhancing the reporting and tracking          RD officials generally agreed to expand and improve the
of weaknesses within financial management and IT.            credit reform checklist, ensure model changes are
OCFO generally agreed with the findings and                  thoroughly evaluated, implement a tracking mechanism
recommendations. (Audit Report No. 50410-53-FM, FY           over RD’s financial statement package, and obtain
2004 USDA Consolidated Financial Statements)                 certification of all rural electric and telephone
                                                             unliquidated obligations in accordance with Treasury
Improvements Still Needed in FSA/CCC Financial               and departmental guidance. However, they did not
Systems                                                      believe the credit reform finding constituted a material
                                                             weakness. In our opinion, though, the system of
FSA/CCC received an unqualified opinion. However,            controls should have detected the resultant errors that
despite some improvements, material internal control         OIG found ($250 million). Accordingly, in our view, the
weakness were found in information security and              weakness is material. (Audit Report No. 85401-11-FM,
planning contingency controls, financial system              RD’s Financial Statements for FYs 2004 and 2003)
functionality, monitoring and controlling budgetary
resources at the transaction level, and procedures over      RMA/FCIC Controls Over IT and Financial Statement
the budget execution process. Instances of                   Preparation Lacking
noncompliance with the Federal Information Security
Management Act of 2002 (FISMA), the Debt Collection          RMA/FCIC again received an unqualified opinion on its
Improvement Act of 1996 (DCIA), and the Federal              financial statements. However, material weaknesses
Financial Management Improvement Act of 1996                 were found in controls over access to information
(FFMIA) included issues relating to the information          systems, application program and system software
security program, timeliness in forwarding debts to          changes, and preparation of the statements of
Treasury for cross-servicing or the offset program, and      budgetary resources and financing. Noncompliance with
financial management systems, respectively. The              FFMIA occurred because FCIC’s financial management
independent contract auditors recommended that CCC           systems did not substantially comply with Federal
improve its controls related to information security and     financial management systems requirements and
establish policies and procedures to ensure that             Federal accounting standards or the United States
unliquidated obligations are evaluated and maintained        Government Standard General Ledger at transaction
monthly for each program. FSA/CCC continues to take          level. FCIC/RMA officials generally concurred with the
corrective actions on prior financial statement audits,      independent contract auditors’ recommendations that
but has not yet responded in detail to all the               FCIC/RMA improve policies and procedures over
recommendations in the current audit. (Audit Report No.      access to information systems and application program
06401-17-FM, CCC’s Financial Statements for FYs              and system software change controls, and obtain
2004 and 2003)                                               training and improve policies and procedures over the
                                                             preparation of the statements of budgetary resources
Improvements Needed in RD’s IT, Credit Reform,               and financing. They also generally agreed to study the
and Unliquidated Obligations                                 feasibility of making revisions to the actuarial loss
                                                             estimation model, and implement and improve policies
Rural Development (RD) again received an unqualified         and procedures to ensure that the most current system
opinion on its financial statements. However, our report     requirements are used in the FFMIA assessment
on RD’s internal control structure discusses two material    process and to ensure management’s FFMIA decisions
weaknesses: ineffective oversight and management of          are fully documented. (Audit Report No. 05401-13-FM,
its IT resources, and credit reform deficiencies resulting   FCIC/RMA’s Financial Statements for FYs 2004 and
in errors in excess of $250 million. One reportable          2003)
condition was also identified concerning the insufficient
review and certification of rural electric and telephone
unliquidated obligations. In our report on compliance,
we noted that RD’s Rural Utilities Service legacy



12
RTB Again Receives an Unqualified Opinion on Its               steps to implement the IPIA and lacked applicable
Financial Statements                                           controls. NRCS officials informed us that they had
                                                               misinterpreted the guidance regarding what they
RTB again received an unqualified opinion on its               needed to do.
financial statements from the independent contract
auditors. However, a material internal control weakness      • Cooperative State Research, Education, and
was found in the application of OMB Circular A-130             Extension Service (CSREES): CSREES did not
requirements to its legacy loan system. The compliance         perform the required risk assessments even though it
report discusses that RTB’s financial management               identified 15 programs in which outlays exceeded the
system was not in substantial compliance with                  OCFO $10 million threshold. CSREES’ process was
applicable Federal financial management system                 limited to a mathematical calculation in which
requirements set forth in FFMIA. (Audit Report No.             program outlays were multiplied by 2.5 percent. If the
15401-05-FM, RTB’s Financial Statements for FYs 2004           program was less than $10 million, CSREES officials
and 2003)                                                      concluded that the individual risk assessments were
                                                               not required, and thus they did not conduct the
USDA Agencies Did Not Adequately Assess Risks                  individual risk assessments in accordance with OMB
for Improper Payments                                          and OCFO criteria and guidance. CSREES
                                                               concurred with the OIG recommendation to complete
The Improper Payments Information Act of 2002 (IPIA)           individual risk assessments in accordance with OMB
requires that Federal agencies annually identify all           and OCFO criteria and guidance. The FY 2005 risk
programs and activities susceptible to significant             assessments were to have been completed by April
improper payments. OCFO instructed all USDA                    30, 2005.
agencies to assess risk for programs with outlays over
$10 million. If the programs were found to be highly         • FSA: FSA generally complied with the OCFO
susceptible to improper payments (defined by OMB as            guidance, but the process could have been
exceeding both 2.5 percent of program payments and             improved. FSA had not always identified risk
$10 million), a statistical projection is required; if the     indicators unique to each program, for example, and
projected amount of improper payments exceeds $10              had not considered prior audit reports or reviews.
million, mitigation plans are required. The 6 agencies         FSA was required to assess 35 of its programs with
we reviewed reported 90 programs with outlays totaling         outlays of $35.8 billion, of which we reviewed 19 with
$47.3 billion that fulfilled the risk assessment criteria.     outlays of about $18 billion. We found that the 19
However, we found that the risk assessments were not           analyses were not complete, yet FSA had listed them
adequate to estimate susceptibility because OCFO’s             to be at low risk for improper payments.
guidance was not sufficiently prescriptive and detailed.
OCFO concurred with the recommendations to                   All the agencies agreed to conduct more thorough risk
strengthen guidance and monitor the agencies’                assessments of required programs in conformity with
implementation of the guidance, and proceeded to issue       OCFO’s revised guidance. This will enable the agencies
strengthened guidance and outline the Department’s           to develop an estimated error rate by developing criteria
goals for each quarter of FY 2005. A breakout of key         unique to their operations to identify program
agencies follows.                                            vulnerabilities, determine acceptable risk levels, rank
                                                             the risk factors, and establish controls to ensure their
 • NRCS: NRCS was not in a position to rate the              timely and accurate completion. (Audit Report No.
   susceptibility of its programs, complete the remainder    50601-8-Ch, Compliance with Improper Payments
   of the requirements provided by OMB and OCFO, or          Reporting Requirements)
   meet the requirements of IPIA. NRCS reported to
   OCFO that none of its seven major program                 AMS Needs To Monitor for Collusive Bidding in
   categories, totaling over $2.3 billion and ranging from   Procurement Purchases
   $14 million to over $1 billion, were subject to
   significant risk of erroneous payments, despite not       We found that AMS personnel performed little detailed
   having established any process or written procedures      analysis of commodity procurement bids to identify
   to conduct risk assessments. Notwithstanding OCFO         potential antitrust activities, such as collusive bidding,
   and OMB guidance, NRCS had not taken sufficient

                                                                                                                      13
among vendors. We also found AMS does not use any             Department and its agencies and implement a formal
automated software mechanism to evaluate historical           tracking system to ensure the timely followup,
vendor bid data by commodities for patterns of potential      resolution, and reporting of cybersecurity incidents.
antitrust violations. Although it uses a database to          OCIO generally concurred and acknowledged that
analyze bidding and award data, AMS does not perform          security weaknesses persist, but stated that action
the in-depth trend analysis of historical data necessary      plans are being developed to eliminate them. OIG
to identify indications of collusive bidding activities. In   recognizes that achievements were made during the
addition, since 1999 AMS has not provided training for        last month of FY 2004 and that OCIO and the agencies
identifying collusive bidding activities to its contracting   have plans to continue their efforts in improving the
officers.                                                     Department’s IT Security position. (Audit Report No.
                                                              50501-01-FM, Federal Information Security
Because AMS and FSA use the same automated                    Management Act-Fiscal Year 2004)
computer systems for conducting commodity
procurements, we believe that both agencies would             Stronger Controls Needed Over Inspection Data in
benefit by coordinating to share a like system to track       PBIS System
and analyze bids for potential antitrust activity. In
response to our recommendation, AMS has been in               Our review found that FSIS had not implemented
contact with FSA regarding such a possibility. AMS has        adequate controls to ensure the integrity of inspection
set up a Collusion Detection Team, which is responsible       data maintained in its Performance Based Inspection
for researching new software alternatives, and AMS will       Service (PBIS) system. FSIS had not established
monitor their progress and consider implementing any          effective physical or logical controls over access to the
recommendations that would be beneficial to AMS.              PBIS data, had not consistently entered data into the
AMS also agreed to strengthen its internal procedures         PBIS system, allowed changes to occur in PBIS without
for reviewing, analyzing, and reporting commodity bids        authorization and validation, had not established
for indications of collusion. AMS has scheduled anti-         tracking or logging in the system in the event that the
trust training to be conducted by the U.S. Department of      original data need to be recovered, and had not used
Justice. All three programs (Livestock and Seed,              complete or up-to-date PBIS data to prepare
Poultry, and Fruit and Vegetable) will be participating,      management reports and conduct trend analysis. In
for a total of approximately 30 people. (Audit Report No.     addition, FSIS management was not vigilant in ensuring
01601-1-KC, AMS Contract and Competitive Bidding              proper security throughout its network.
Practices)
                                                              We recommended that FSIS establish proper access
More IT Security Improvements Needed for Effective            control policies; ensure that data entered into PBIS are
Department-wide Security                                      allowable and reliable; limit, justify, and log changes;
                                                              ensure that all security settings accord with
The Department and its agencies undertook substantial         departmental guidance; and promptly correct network
efforts during the year toward completion of the              vulnerabilities. FSIS generally concurred but stated that
certification and accreditation of their systems.             data contained in PBIS are not the agency’s sole
However, persistent weaknesses in the Department’s            mechanism for enforcing its regulatory authority.
security program can be attributed to management’s            However, we contend that it is critical to planning,
lack of commitment to implementing an effective               implementing, and documenting inspection activities
security program within their respective agencies.            and that FSIS should continue to improve its timeliness
Issues include the unreliable inventory of applications       and accuracy. This will enhance FSIS’ ability to
and general support systems, incomplete compliance            schedule inspections activities based on the most
with OMB and other Federal requirements, untimely             comprehensive and updated information. (Audit Report
certification of applications, untimely identification and    No. 24501-1-FM, FY 2004 – Application Control Review
correction of vulnerabilities, weaknesses in physical and     of FSIS’ Performance Based Inspection Service
logical access controls, and needed improvement in            System)
Office of the Chief Information Officer (OCIO) oversight
of security incidents. We recommended that OCIO
establish guidance to identify systems within the



14
NFC Takes Significant Corrective Actions, but More         individual withdrew approximately $40,000 in cash,
Improvement Needed                                         which he used for personal expenses. Sentencing was
                                                           scheduled for April 2005.
In FY 2003, the National Finance Center (NFC)
processed more than $66.9 billion in disbursements and     NRCS Employee Guilty of Government Credit Card
collections for USDA and its other customers; clearly,     Abuse
information security is of paramount significance. While
NFC had taken significant corrective actions during the    An NRCS public affairs specialist in New York pled
fiscal year, we rendered a qualified opinion on the        guilty to misusing her Government-issued credit card
internal control structure because certain control         over a 7-month period when she made unauthorized
policies and procedures over critical areas were not       purchases totaling more than $16,000. The employee
suitably designed and/or operating effectively at the      kept receipts of legitimate purchases and threw out
time of our review. NFC needed to                          receipts for the unauthorized purchases in an effort to
                                                           hide her actions. She has resigned from NRCS and is
• update its directive and functional statements to        awaiting sentencing.
  clearly define security responsibilities and complete
  required background investigations for individuals in    FSIS Food Inspector Filed False Attendance
  high-risk positions,                                     Reports

• tighten access of personnel and clients to critical      An FSIS food inspector in Pennsylvania filed false time
  payroll and personnel applications and adequately        and attendance reports to receive more than $42,000 in
  protect certain sensitive client information from        unentitled pay. During a 16-month period, the inspector
  unauthorized disclosure,                                 submitted 51 false attendance reports, representing
                                                           2,686 hours she did not work. Sentencing is pending.
• better track and secure modems on its network,
  maintain its firewall configurations, and review logs    Critical Water and Climate Information System
  on servers, and                                          Needs To Be Made More Secure

• strengthen controls over application changes.            The Water and Climate Information System (WCIS) is a
                                                           critical application system that collects vital climatic data
We made a series of recommendations that                   in the Western United States to measure snowpack in
comprehensively addressed those shortcomings. NFC          the mountains and to forecast the water supply. Our
concurred and responded with significant actions before    audit found that NRCS had not developed sufficient
the final report was issued to correct identified          management controls to communicate Federal and
weaknesses (Audit Report No.11401-20-FM, FY 2004 –         departmental security requirements for WCIS data to its
Review of the National Finance Center General              field units, and had not developed an oversight system
Controls)                                                  to ensure timely compliance with security requirements.
                                                           We found that the WCIS contingency plans, computer
Former Legislative Assistant Convicted of Fraud            security plans, and risk assessments did not comply
                                                           with established guidelines. In addition, failure to
A former legislative assistant to a U.S. Congressman       perform periodic vulnerability scans that would disclose
from Michigan was convicted on nine counts of fraud for    high- and medium-risk vulnerabilities exposed WCIS to
stealing approximately $40,000 in USDA and bank            potential unauthorized access.
funds through his operation of a national farmers
organization. The monies, part of a $65,000 donation by    We recommended that NRCS establish controls to
four USDA program agencies and a bank, were                ensure that all of its field units meet Federal and
provided to offset expenses associated with a 3-day        departmental security requirements, especially for
symposium in New Orleans during May 1999,                  vulnerability scans, disaster recovery plans, security
sponsored by the organization. The investigation with      plans, and risk assessments. NRCS has taken
the FBI determined that the subject never paid vendors     immediate action to address system vulnerabilities and
for services worth approximately $150,000. Instead, the    access controls, and plans to run monthly vulnerability


                                                                                                                     15
     scans and update its security manual. (Audit Report      modifications, supervisory reviews, technical
     No. 10501-1-SF, Fiscal Year 2004 – Review of             documentation, and application monitoring. In addition,
     Application Controls over the NRCS Water and             we recommended that AMS establish and implement
     Climate Information System)                              management controls to ensure that Federal and
                                                              departmental guidance is followed regarding security
     Application Controls Over ITS Were Inadequate            concerns, performance goals, application certification,
                                                              and scans. AMS agreed to improve application and
     APHIS had not prescribed controls to ensure that         management controls to ensure that data entered into
     data were accurately and timely input into the Import    LMPRS are properly authorized and completely and
     Tracking System (ITS), leading to erroneous data         accurately processed. (Audit Report No. 01099-4-Te,
     that undermined its usefulness. Errors included the      FY 2004 – AMS Livestock Mandatory Price Reporting
     incorrect number of animals entering the country,        System – Application Controls)
     incorrect purpose codes for animals entering the
     country, and no destination locations for animals.       RMA Needs To Improve Crop Insurance Premium
     APHIS had no policy for the frequency of transmitting    Ratemaking Process
     data into the ITS and did not monitor port office
     transmission activities, so the ITS lacked current       We evaluated the Risk Management Agency’s (RMA)
     information because some offices were not updating       policies and procedures for cotton crop insurance
     regularly. APHIS also needed to improve system           premium rates, and looked at historical losses for cotton
     access controls. We recommended that APHIS               and other major crops that use the actual production
     establish manual and automated application controls,     history automated ratemaking process. From 1975 to
     develop and implement minimum frequency                  2003, cotton and wheat premiums have not been
     requirements for transmitting data to the system,        sufficient to cover indemnities, resulting in net program
     monitor port office data transmission activities, and    losses totaling over $1.2 billion and $1.6 billion,
     strengthen access controls. APHIS generally              respectively. Corn, however, has netted a surplus of
     concurred and plans to implement corrective              $1.4 billion.
     measures and application controls. (Audit No. 33501-
     01-Ch, Fiscal Year 2004 – Review of Applications         To address the significant losses and inequities, RMA
     Controls for the Import Tracking System)                 should improve its quality control over the ratemaking
                                                              process. We recommended that RMA: (1) review
     AMS Needs To Improve Application and                     ratemaking decisions for the past 5 years for corn,
     Management Controls for LMPRS                            cotton, wheat, and soybeans, and implement any
                                                              changes needed, (2) review the disaster reserve factor
     AMS implemented the Livestock Mandatory Price            and document support for the value; and (3) establish
     Reporting System (LMPRS) in April 2001 in response       formal written policy and procedures for the crop
     to the Livestock Mandatory Reporting Act of 1999.        insurance ratemaking process, ensuring that the
     LMPRS collects information about livestock pricing,      procedures incorporate critical control points and
     contracting arrangements, and supply and demand          supervisory oversight in the process, and require
     conditions and summarizes it in national reports,        supporting documentation for periodic review of
     publicly available on the AMS Web site. Our review       established rates, ratemaking formula factors, and
     disclosed that, overall, AMS had authorization,          management decisions.
     completeness, and accuracy controls for LMPRS
     data; however, AMS needed improved LMPRS                 RMA responded that it would perform an analysis where
     application controls over access privileges, technical   the historical net indemnities are adjusted to reflect the
     documentation, mandatory report modifications,           current level of premium rates to provide a more
     supervisory reviews, and application monitoring.         accurate indication of the current state of the crop
     AMS also lacked adequate management controls to          insurance program. The agency also plans to contract
     ensure the implementation of Federal and                 with an actuarial firm to review, update, and document
     departmental IT guidelines.                              the disaster reserve factor. Finally, the agency will
                                                              formally develop and document its procedures for the
     We recommended that AMS establish and implement          ratemaking process. (Audit Report No. 05601-7-At,
     stronger controls over access privileges, report         Cotton Premium Rates)

16
RMA Needed To Strengthen the Crop Insurance                  accomplishment information it provides to Congress and
Program as Part of the Renegotiation of Standard             other interested parties is consistent, valid, and
Reinsurance Agreements                                       supported, rendering it largely ineffective in managing
                                                             FS operations.
We identified and assessed critical issues for RMA to
consider to strengthen the crop insurance program            The FS’ goals and performance measures were often
during the Standard Reinsurance Agreement (SRA)              vague, open to varied interpretation, and not timely
renegotiation with the private insurance companies. We       distributed to the field for implementation. The
also analyzed internal control weaknesses and the            standards defining performance varied between regions
model results used by RMA and assessed their                 and forests and even among the districts within a forest.
potential impact on the crop insurance program. We           Also, the FS’ Performance and Accountability Report
provided RMA officials with a series of memoranda and        was based on inaccurate, inconsistent, and unverified
held multiple discussions. After a 6-month process and       data, and thus unreliable for making sound decisions.
before the July 1, 2004, deadline, RMA successfully          The FS continues to lack an effective internal control
completed the renegotiation and received signed SRAs         system to ensure data quality even though this problem
from all 14 reinsured companies that participated in the     has been repeatedly reported since the early 1990s.
2004 reinsurance year. However, much remains to              Nonetheless, in its FY 2003 Performance and
incorporate and implement policies and procedures for        Accountability Report the FS discontinued reporting its
the 2005 reinsurance year.                                   problems on the lack of effective internal controls as
                                                             required under the Federal Managers’ Financial Integrity
We recommended that RMA develop a detailed strategy          Act (FMFIA).
to implement key provisions in the 2005 SRA that
describes RMA timeframes for each key implementation         Our recommendations addressed each issue, including
area, including codification of the quality control          that FS line officers be held personally accountable for
provisions into Federal regulations, as well as other        the effective implementation of GPRA. The FS
enhancements and financial management controls.              concurred and has committed to implement corrective
RMA had taken significant actions by establishing a          actions, which we will continue to monitor. (Audit Report
formal workgroup on implementation issues, holding           No. 08601-1-Hy, Forest Service Implementation of the
internal strategy meetings, and conducting meetings          Government Performance and Results Act)
with insurance industry officials on the new SRA
provisions and requirements. RMA also plans to               Federal Research Misconduct Policy at USDA
address large-claim reviews, Plan of Operations              Needs Improvement
reviews, conflict-of-interest guidance, company
contingency plans, and codification of the quality control   Our audit determined that despite a Federal mandate to
provisions. (Audit Report No. 05099-109-KC, RMA              implement a research misconduct policy in 2001, the
Activities to Renegotiate the Standard Reinsurance           Department did not do so and did not coordinate an
Agreement)                                                   oversight process to consistently and effectively apply
                                                             such a policy. As prescribed by the Executive Office of
FS Implementation of GPRA Still Lacking                      the President, Office of Science and Technology Policy
                                                             (OSTP), such a policy should include a definition of
Following up on our FY 2000 audit, we determined that        misconduct and the elements of a finding, instructions
the FS had not made significant progress toward              for handling allegations and adjudication, safeguards for
effectively implementing the requirements of the             informants and subjects of allegations, and possible
Government Performance and Results Act (GPRA) in its         administrative actions. We recommended that the
operations. Many of the problems reported in our FY          Department develop and implement a Department-wide,
2000 audit, as well as in a series of seven U.S.             OSTP-compliant research misconduct policy. We also
Government Accountability Office (GAO) reports dating        recommend that the Department-wide research
back over 12 years, persisted. The FS has made some          misconduct policy include specific instructions
improvements in its planning processes but has not           applicable to USDA-funded research and proposals
effectively implemented these improvements.                  submitted for research funding. The Department
Consequently, the FS cannot ensure that the                  generally concurred and agreed that a centralized


                                                                                                                    17
oversight body for research misconduct within the           NRCS Provides Questionable Assurance of
Department would be established in the Office of the        Management Controls
Undersecretary for Research, Education, and
Economics and be accountable for coordinating               In preparing its annual statement of assurance reports
research misconduct policies and procedures. (Audit         (i.e., FMFIA reports to the Department) for FYs 2002
Report No. 50099-11-Hy, Implementation of Research          and 2003, NRCS relied on general statements by
Misconduct Policy within Departmental Agencies)             agency officials that no material weaknesses had been
                                                            identified. These statements did not acknowledge the
Confusion, Program Issues Disclosed in                      suspension of some of the agency’s internal controls or
Environmental Quality Incentives Program (EQIP)             provide a rationale for the assurance. For these years,
                                                            NRCS discontinued the controls it had implemented
NRCS’ EQIP was reauthorized in the Farm Security and        several years earlier when OIG audits reported an
Rural Investment Act of 2002 (Farm Bill) to provide a       ongoing embezzlement, but it did not communicate to
voluntary conservation program for farmers and              managers the effect of the discontinuance. The
ranchers. We found that the procedural changes made         preponderance of program reviews and the absence of
to the program as a result of the Farm Bill were            financial reviews resulted in an incomplete assessment
implemented through a series of memoranda and               of the agency’s control structure and an incomplete
bulletins issued by the NRCS National Office. Because       portrayal of that structure to agency officials.
draft copies were furnished before the first changes to     Consequently, agency leadership based their judgments
the Conservation Programs Manual were made formally         about controls (and, in turn, the agency’s stewardship of
in May 2004, NRCS State and field office personnel          its resources) on assurances from their staff that no
were confused about implementing the draft manual           control weaknesses rose to the level of materiality.
provisions. Several program issues also warranted           NRCS agreed, and has already begun, to implement a
attention, including the review and oversight of locally    formal process to document its internal management
developed ranking systems, adequacy of points               controls for preparation of its annual statement of
awarded for “structural” versus “management” practices      assurance in the FMFIA report. (Audit Report No.
when ranking EQIP applications to prioritize funding, the   10099-4-Te, Survey of Controls Over Centers and
status review process regarding producer certifications,    Institutes)
beginning farmer and limited-resource producer
designations, and controls over reimbursements made
when the producers actually install the conservation         FY 2004 MANAGEMENT CHALLENGES
practice.                                                    ADDRESSED UNDER GOAL 3
Effective October 1, 2004, NRCS assumed total                 • Financial Management – Improvements Made
responsibility in providing financial and technical             but Additional Actions Still Needed
assistance for EQIP, formerly shared with FSA.                • IT Security – Much Accomplished, More Needed
Consequently, NRCS revised the Conservation                   • Civil Rights Complaints Processing Still a
Program Manual in October 2004. We plan to reassess             Concern at USDA
the program after NRCS has had adequate opportunity           • Research Misconduct Policy Not Consistently
to assume its new financial and technical assistance            Implemented
duties and to implement the latest EQIP handbook.             • A Strong Internal Control Structure Is Paramount
(Audit Report No. 10099-18-KC, Environmental Quality            to the Delivery of FS Programs – Agency-
Incentives Program)                                             Specific Challenge




18
ONGOING AND PLANNED REVIEWS FOR GOAL 3


Topics that will be covered in ongoing or planned      • effectiveness of RMA’s compliance activities and
reviews under Goal 3 include:                            oversight in preventing fraud and abuse,
• annual audits of the Department and standalone       • a review of RMA’s management controls over
   agencies’ financial statements for FYs 2005 and       insurance pool placement,
   2006 (OCFO),                                        • an evaluation of RMA controls over the use of
• FSA’s implementation of finality rule and              optional units,
   equitable relief provisions as they relate to       • FS Capital Improvement Program,
   identifying improper payments,                      • Healthy Forests Initiative (FS),
• followup on recommendations made on FS’              • FS internal controls,
   maintenance backlog,                                • FS’ implementation of GPRA,
• OCFO FYs 2004 and 2005 agreed-upon                   • large-fire suppression costs (FS),
   procedures: retirement, health, and life            • FS efforts to eliminate invasive species,
   insurance and headcount,                            • FS emergency equipment rental agreements,
• OCFO controls over final action on audit             • National Fire Plan firefighting contract crews
   recommendations,                                      (FS),
• FYs 2004 and 2005 NFC IT controls,                   • FS collaborative ventures and partnerships with
• FNS application control review of the Store            non-Federal entities,
   Tracking and Redemption Subsystem,                  • Wetland Reserve Program compensation for
• FISMA – FY 2005 (OCIO),                                easements (NRCS),
• security over IT convergence (OCIO),                 • controls over vehicle maintenance costs
• application controls over the processed                (NRCS),
   commodity inventory management system               • followup review of the Grain Inspection, Packers
   (OCIO),                                               and Stockyards Administration (GIPSA),
• review of public key infrastructure at OCFO/         • minority participation in FSA’s farm loan
   NFC,                                                  programs, and
• review of the change controls over USDA              • followup on the recommendations made to Civil
   applications maintained by OCFO/controller            Rights for program and employment complaints.
   operations,
• coordination and effectiveness of FSA internal     The findings and recommendations from these efforts
   and compliance reviews,                           will be covered in future semiannual reports as the
• effectiveness of RMA’s data acceptance system,     relevant audits and investigations are completed.




                                                                                                           19
Gauging the Impact of the OIG
PROGRESS AGAINST THE OIG STRATEGIC PLAN

The first way we gauged our impact was by measuring the extent to which our work focused on the key issues under
our three strategic goals:

     1. Support USDA in the enhancement of safety and security measures to protect USDA and agricultural
        resources and in related public health concerns.
     2. Reduce program vulnerabilities and enhance integrity in the delivery of benefits to individuals.
     3. Increase the efficiency and effectiveness with which USDA manages and employs public assets and
        resources, including physical and information resources.

OIG work in each of these areas was categorized by importance, and the percentages of work in the critical and high
impact categories were tracked, as were the percentages of audits and investigations that achieved results. An
integral part of this program was the identification of USDA programs and operations that were particularly vulnerable
and posed significant risks, or what we refer to as “management challenges.”

We are reporting OIG’s audit and investigative accomplishments for first half of FY 2005 against our three strategic
business goals. OIG’s overall performance results totals are introduced below in chart form, and followed in the main
text by the three sections that include statistical results, summaries of significant investigative and audit
accomplishments, management challenges, and ongoing and planned audit work. These percentages are based upon
a total of direct audit and investigation work hours and do not include overhead or administrative hours.

                       PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS

                                                                                                            FY 2005
                                                            FY 2004                 FY 2005                 1st Half
Performance Measures                                        Baseline                Target                  Actual

Audit/Investigative resources dedicated                     81%                     90%                     94.1%
to critical/high impact work

Audit recommendations resulting in                          78%                     85%                     92.2%
management decision within 1 year

Investigative cases where criminal, civil,                  61.6%                   65%                     69%
or administrative action is taken in
response to OIG reports

IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON DEPARTMENT PROGRAMS

A second way we gauge our impact is by tracking the outcomes of our audits and investigations. Many of these
measures were first codified in the Inspector General Act of 1978, as subsequently amended. The IG Act measures
focus on the number of monetary audit recommendations issued and the agencies’ agreements to act on those
recommendations (the management decision process). We have augmented this with information on management
decisions on OIG program improvement recommendations.

The following pages present a statistical overview of the OIG’s accomplishments this period.

     •   In addition to the audit measures discussed above, we have included information on specific audit
         recommendations on which management has not yet reached a decision.

     •   For investigations, we summarize such key matters as indictments, convictions, arrests, administrative
         sanctions, and OIG Hotline complaints. Our monetary results include recoveries, restitutions, and fines that
         total in the multimillions of dollars. Moreover, the investigative impact on safety, security, and public health, as
         well as its deterrent factor against future crimes, is invaluable.

20
    Summary of Audit Activities—October 2004-March 2005
Reports Issued .................................................................................................................................................   37
  Audits Performed by OIG ....................................................................................                30
  Evaluations Performed by OIG ...........................................................................                      0
  Audits Performed Under the Single Audit Act .....................................................                             0
  Audits Performed by Others ................................................................................                   7

Management Decisions Made
  Number of Reports ........................................................................................................................................ 40
  Number of Recommendations ....................................................................................................................... 336

Total Dollar Impact (Millions) of Management-Decided Reports ................................................................. $16.3
  Questioned/Unsupported Costs .......................................................................................... $ 7.7ab
     Recommended for Recovery ..........................................................................         $5.3
     Not Recommended for Recovery ...................................................................            $2.4
  Funds To Be Put to Better Use ............................................................................................ $ 8.6
a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.




    Summary of Investigative Activities—October 2004-March 2005
Reports Issued ................................................................................................................................................... 142
Cases Opened ................................................................................................................................................... 202
Cases Closed ..................................................................................................................................................... 136
Cases Referred for Prosecution ......................................................................................................................... 72

Impact of Investigations
  Indictments .................................................................................................................................................... 102
  Convictions .................................................................................................................................................... 117a
  Searches ........................................................................................................................................................ 35
  Arrests ........................................................................................................................................................... 150

Total Dollar Impact (Millions) .......................................................................................................................... $61.8
  Recoveries/Collections ........................................................................................................ $ 29.7b
  Restitutions .......................................................................................................................... $ 22.8c
  Fines .................................................................................................................................... $ 0.5d
  Claims Established .............................................................................................................. $ 1.3e
  Cost Avoidance .................................................................................................................... $ 7.2f
  Administrative Penalties ....................................................................................................... $ 0.3g

Administrative Sanctions ................................................................................................................................ 414
  Employees ...........................................................................................................................  24
  Businesses/Persons ............................................................................................................       390
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
    therefore, the 117 convictions do not necessarily relate to the 102 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Claims established are agency demands for repayment of USDA benefits.
f
    Consists of loans or benefits not granted as the result of an OIG investigation.
g
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




                                                                                                                                                                            21
                               INVENTORY OF AUDIT REPORTS
                  WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                        FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005


                                     NUMBER       DOLLAR VALUE


A. FOR WHICH NO MANAGEMENT                 7       $14,022,510
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2004

B. WHICH WERE ISSUED DURING                2         $478,281
   THE REPORTING PERIOD
   TOTALS                                  9       $14,500,791



C. FOR WHICH A MANAGEMENT                  4
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                            $8,585,036
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF                                   $0
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                 5        $5,915,755
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO                  5        $5,915,755
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




22
                                   INVENTORY OF AUDIT REPORTS
                                WITH QUESTIONED COSTS AND LOANS
                           FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005


                                                                DOLLAR VALUES

                                                          QUESTIONED        UNSUPPORTEDa
                                            NUMBER      COSTS AND LOANS    COSTS AND LOANS


A. FOR WHICH NO MANAGEMENT                         32       $142,748,996        $96,785,190
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2004

B. WHICH WERE ISSUED DURING                         2          $287,954                 $0
   THIS REPORTING PERIOD


    TOTALS                                         34       $143,036,950        $96,785,190


C. FOR WHICH A MANAGEMENT                          10
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

    (1) DOLLAR VALUE OF
        DISALLOWED COSTS

      RECOMMENDED FOR RECOVERY                                $5,308,817                $0

      NOT RECOMMENDED FOR RECOVERY                            $2,368,021                $0

    (2) DOLLAR VALUE OF                                      $20,852,888        $18,563,871
        COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                         24       $114,890,863        $78,221,319
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

    REPORTS FOR WHICH NO                           24       $114,831,935        $78,221,319
    MANAGEMENT DECISION WAS
    MADE WITHIN 6 MONTHS
    OF ISSUANCE




a
Unsupported values are included in questioned values.




                                                                                              23
 PROGRAM IMPROVEMENT RECOMMENDATIONS




A significant number of our audit recommendations carry no monetary value per se, but their impact can be
immeasurable in terms of safety, security, and public health. They can also contribute considerably toward economy,
efficiency, and effectiveness in USDA’s programs and operations. During this reporting period, we issued 163
program improvement recommendations, and management agreed to implement a total of 168 program improvement
recommendations that were issued this period or earlier. Examples of the program improvement recommendations
issued this period include the following. See the main text of this report for a summary of the audits that prompted
these program improvement recommendations.

• As part of our efforts to stop bovine spongiform encephalopathy (BSE or “mad cow disease”) at the border, APHIS
  and FSIS agreed to better communicate changes in policy and eligibility of Canadian beef imports, strengthen
  controls over permits, and better identify ineligible product.

• APHIS officials agreed to resolve border inspection activities issues with U.S. Customs and Border Protection.

• APHIS agreed to help ensure compliance with all controls regarding movement of biological agents and toxins that
  pose a severe threat to animals and plants.

• After our audit found that the disparate application of MILC production caps led to payment inequities, FSA agreed
  that language should be submitted for inclusion in proposed legislation to preclude such inequities in the future.

• RHS agreed to implement agreed-upon actions for unauthorized rental subsidy payments within 6 months.

• OCFO agreed to make additional improvements in financial management and enhance the reporting and tracking
  of weaknesses within financial management and IT.

• OCFO strengthened guidance on improper payments and outlined the Department’s goals for each quarter of FY
  2005.

• AMS set up a Collusion Detection Team and agreed to strengthen its internal procedures to examine commodity
  bids for indications of collusion.

• OCIO agreed to implement a formal tracking system to timely follow up on, resolve, and report cybersecurity
  incidents.

• APHIS agreed to establish application controls for the Import Tracking System, implement minimum frequency
  requirements for transmitting data to the system, monitor port office data transmission activities, and strengthen
  access controls.

• USDA agreed to establish a centralized oversight body for research misconduct.




24
                                 SUMMARY OF AUDIT REPORTS RELEASED
                              FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005

DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005, THE OFFICE OF
INSPECTOR GENERAL ISSUED 37 AUDIT REPORTS, INCLUDING 7 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:


                                                      AUDITS    QUESTIONED       UNSUPPORTEDa      FUNDS BE PUT
AGENCY                                               RELEASED COSTS AND LOANS   COSTS AND LOANS   TO BETTER USE



AGRICULTURAL MARKETING SERVICE                                2
AGRICULTURAL RESEARCH SERVICE                                 3
ANIMAL AND PLANT HEALTH INSPECTION SERVICE                    5    $228,332                           $473,963
COMMODITY CREDIT CORPORATION                                  1
COOPERATIVE STATE RESEARCH, EDUCATION,
   AND EXTENSION SERVICE                                      1
FARM SERVICE AGENCY                                           2     $59,622
FOOD SAFETY AND INSPECTION SERVICE                            1
FOREST SERVICE                                                2
MULTIAGENCY                                                   7                                         $4,318
NATURAL RESOURCES CONSERVATION SERVICE                        4
OFFICE OF THE CHIEF FINANCIAL OFFICER                         2
RISK MANAGEMENT AGENCY                                        3
RURAL DEVELOPMENT                                             1
RURAL HOUSING SERVICE                                         2
RURAL TELEPHONE BANK                                          1

    TOTALS                                                   37    $287,954                $0         $478,281




    TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                                    30
      MULTIAGENCY AUDIT                                       7
      SINGLE AGENCY EVALUATION                                0
      MULTIAGENCY EVALUATION                                  0

    TOTAL RELEASED NATIONWIDE                                37

    TOTAL COMPLETED UNDER CONTRACTb                           7

    TOTAL SINGLE AUDIT ISSUEDc                                0

    a
      Unsupported values are included in questioned values
    b
      Indicates audits performed by others
    c
      Indicates audits completed as Single Audit


                                                                                                    –Continued


                                                                                                             25
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                          FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005


                                                                 QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                        COSTS         COSTS        PUT TO
RELEASE DATE     TITLE                                            AND LOANS     AND LOANS    BETTER USE

AGRICULTURAL MARKETING SERVICE

010990004TE    AMS LIVESTOCK MANDATORY PRICE REPORTING
2004/12/22     SYSTEM – APPLICATION CONTROLS
016010001KC    SURVEY OF AMS CONTRACT COMPETITIVE BIDDING
2005/01/31     PRACTICES

TOTAL: AGRICULTURAL MARKETING SERVICE                        2


AGRICULTURAL RESEARCH SERVICE

020170002HQ    DCAA AUDIT OF SCIENTIFIC RESEARCH
2004/10/05     AGRICULTURAL INSTITUTE (SRAI) FUNDED BY ARS
020170003HQ    DCAA AUDIT OF RUSSIAN RESEARCH INSTITUTE OF
2004/10/06     PHYTOPATHOLOGY FUNDED BY ARS
020170004HQ    DCAA AUDIT OF INSTITUTE OF MICROBIOLOGY AND
2004/10/06     VIROLOGY (IMV) FUNDED BY ARS

TOTAL: AGRICULTURAL RESEARCH SERVICE                         3


ANIMAL AND PLANT HEALTH INSPECTION SERVICE

330990010SF    EXOTIC NEWCASTLE DISEASE ERADICATION                 $228,332                   $473,963
2005/01/20     PROJECT – COOPERATIVE/REIMBURSABLE
               AGREEMENTS
335010001CH    REVIEW OF APPLICATION CONTROLS FOR THE
2005/03/31     IMPORT TRACKING SYSTEM
336010001HY    APHIS’ OVERSIGHT OF BEEF PRODUCTS FROM
2005/02/14     CANADA
336010004AT    REVIEW OF EXPORT LICENSING PROCESS FOR
2005/03/31     APHIS LISTED AGENTS AND TOXINS
336010005CH    TRANSITION AND COORDINATION OF BORDER
2005/03/31     INSPECTION ACTIVITIES BETWEEN USDA AND DHS

TOTAL: ANIMAL AND PLANT HEALTH                               5      $228,332                   $473,963
    INSPECTION SERVICE


COMMODITY CREDIT CORPORATION

064010017FM    MONITORING THE AUDIT OF CCC’S FISCAL YEAR 2004
2004/11/05     FINANCIAL STATEMENTS

TOTAL: COMMODITY CREDIT CORPORATION                          1


COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE

136010002AT    USDA-CSREES COMPLIANCE WITH IMPROPER
2005/01/07     PAYMENTS ACT OF 2002

TOTAL: COOPERATIVE STATE RESEARCH, EDUCATION                 1
    AND EXTENSION SERVICE



26
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                          FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005


                                                                 QUESTIONED   UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                        COSTS        COSTS        PUT TO
RELEASE DATE     TITLE                                            AND LOANS    AND LOANS    BETTER USE

FARM SERVICE AGENCY

036010010CH    MILK INCOME LOSS CONTRACT (MILC) PROGRAM            $59,622
2004/12/21
036010046TE    AUDIT OF FSA’S COMPLIANCE WITH THE IMPROPER
2005/03/21     PAYMENTS ACT OF 2002

TOTAL: FARM SERVICE AGENCY                                   2      $59,622


FOOD SAFETY AND INSPECTION SERVICE

245010001FM    APPLICATION CONTROL, REVIEW OF FSIS’
2004/11/24     PERFORMANCE BASED INSPECTION SERVICE (PBIS)
               SYSTEM

TOTAL: FOOD SAFETY AND INSPECTION SERVICE                    1


FOREST SERVICE

084010004FM    MONITORING THE AUDIT OF FISCAL YEAR 2004
2004/11/10     FOREST SERVICE FINANCIAL STATEMENTS
086010001HY    FOREST SERVICE IMPLEMENTATION OF THE
2005/03/31     GOVERNMENT PERFORMANCE AND RESULTS ACT

TOTAL: FOREST SERVICE                                        2


MULTIAGENCY

500990011HY    IMPLEMENTATION OF RESEARCH MISCONDUCT
2005/03/31     POLICY WITHIN DEPARTMENTAL AGENCIES
500990017AT    CONTROLS OVER ASSESSING ENVIRONMENTAL
2005/03/14     LIABILITIES
500990017KC    BIOSECURITY GRANT FUNDING                                                        $4,318
2005/02/17
504010053FM    FY 2004 USDA CONSOLIDATED FINANCIAL
2004/11/15     STATEMENTS
504010055FM    AUDIT OF USDA’S CLOSING PACKAGE FOR
2004/11/18     FISCAL YEAR 2004
505010001FM    FEDERAL INFORMATION SECURITY MANAGEMENT
2004/11/06     ACT – FISCAL YEAR 2004
506010008CH    USDA COMPLIANCE WITH IMPROPER PAYMENTS
2005/01/11     REPORTING REQUIREMENTS

TOTAL: MULTIAGENCY                                           7                                  $4,318


NATURAL RESOURCES CONSERVATION SERVICE

100990004TE    SURVEY OF NRCS CONTROLS OVER CENTERS AND
2004/12/22     INSTITUTES
100990018KC    ENVIRONMENTAL QUALITY INCENTIVES PROGRAM
2005/02/28



                                                                                                     27
                  AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                         FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005
                                                                    QUESTIONED   UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS        COSTS        PUT TO
RELEASE DATE     TITLE                                               AND LOANS    AND LOANS    BETTER USE

105010001SF    REVIEW OF APPLICATION CONTROLS OVER THE
2004/12/15     NRCS – WATER AND CLIMATE INFORMATION SYSTEM
               (WCIS) FOR FY 2004
106010003KC    USDA – NRCS COMPLIANCE WITH IMPROPER
2005/01/10     PAYMENTS ACT OF 2002

TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                  4


OFFICE OF THE CHIEF FINANCIAL OFFICER

110990045FM    REVIEW OF PUBLIC KEY INFRASTRUCTION AT
2004/10/29     OCFO/NFC
114010020FM    FISCAL YEAR 2004 – REVIEW OF THE NATIONAL
2004/10/25     FINANCE CENTER GENERAL CONTROLS

TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                   2


RISK MANAGEMENT AGENCY

050990109KC    RMA ACTIVITIES TO RENEGOTIATE THE STANDARD
2005/01/27     REINSURANCE AGREEMENT
054010013FM    MONITORING THE AUDIT OF FISCAL YEAR 2004 FCIC
2004/11/12     FINANCIAL STATEMENTS
056010007AT    RMA – COTTON PREMIUM RATES
2005/02/10

TOTAL: RISK MANAGEMENT AGENCY                                  3


RURAL DEVELOPMENT

854010011FM    RURAL DEVELOPMENT FISCAL YEAR 2004 FINANCIAL
2004/11/05     STATEMENTS

TOTAL: RURAL DEVELOPMENT                                       1


RURAL HOUSING SERVICE

040990339AT    SUBSIDY PAYMENT ACCURACY IN MULTI-FAMILY
2005/03/23     HOUSING PROGRAMS
046010010CH    RHS COMPLIANCE WITH IMPROPER PAYMENTS
2005/01/27     INFORMATION ACT OF 2002

TOTAL: RURAL HOUSING SERVICE                                   2


RURAL TELEPHONE BANK

154010005FM    MONITORING FISCAL YEAR 2004 RTB FINANCIAL
2004/11/05     STATEMENTS

TOTAL: RURAL TELEPHONE BANK                                    1


GRAND TOTAL:                                                   37   $287,954                     $478,281

28
 AUDITS WITHOUT MANAGEMENT DECISION
The Inspector General Act has a number of reporting requirements, among them tracking audits without management
decision. The following audits did not have management decisions made within the 6-month limit imposed by
Congress. Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal,
or investigative proceedings, which must be completed before the agency can act to complete management
decisions.


 NEW SINCE LAST REPORTING PERIOD

                                                                                                            Amount With
                                                                                     Total Value              No Mgmt.
                                                                                     at Issuance              Decision
Agency               Date Issued              Title of Report                        (in dollars)            (in dollars)

APHIS           09/30/04       1. WS – Aerial Acquisition                                25,208                   25,208
                                  Procedures (33099-1-KC)*

FNS             06/25/04       2. Philadelphia NSLP Computer                            867,424                 867,424
                                  Attendance/Meal Claim Analysis
                                  (27010-31-Hy)*

FSA             09/30/04       3. Federal Assistance Grants to                           54,174                   54,174
                                  Producers Along the Rio Grande
                                  in Texas (03099-180-Te)*

FSIS            06/09/04       4. Oversight of the Listeria Outbreak                           0                        0
                                  in the Northeastern United States
                                  (24601-2-Hy)

                06/29/04       5. Effectiveness Checks for the 2002                            0                        0
                                  Pilgrim’s Pride Recall of Ready-to-
                                  Eat Poultry Products (24601-3-Hy)

                09/30/04       6. Use of Food Safety Information                               0                        0
                                  Systems (24601-3-Ch)

RBS             04/23/04       7. RBS VAPG (34601-3-KC)                                        0                        0

RHS             09/30/04       8. RRH Project Costs,                                    164,000                 164,000
                                  Cairo, IL (04099-143-Ch)*

RMA             05/21/04       9. RMA – Added Land Policy                               394,080                 354,801
                                  (05099-25-At)

                06/01/04     10. Management and Security                                       0                        0
                                 of RMA Technology
                                 Resources (05099-18-KC)




                                                                                                                         29
 PREVIOUSLY REPORTED BUT NOT YET RESOLVED

These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but
for various reasons the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.
                                                                                                           Amount With
                                                                                      Total Value             No Mgmt.
                                                                                      at Issuance             Decision
Agency               Date Issued             Title of Report                          (in dollars)           (in dollars)

APHIS           02/20/03     11. Safeguards To Prevent Entry of                              0                       0
                                 Prohibited Pests and Diseases
                                 Into the United States (33601-3-Ch)

Civil Rights    03/24/99     12. Evaluation of CR Management                                 0                       0
(CR)                             of Settlement Agreements
                                 (60801-2-HQ)

                03/10/00     13. Office of CR Management of                                  0                       0
                                 Employment Complaints
                                 (60801-3-HQ)

                03/10/00     14. Status of Implementation of                                 0                       0
                                 Recommendations Made in
                                 Prior Evaluations of Program
                                 Complaints (60801-4-HQ)

CSREES          08/06/02     15. Grants to National Center                          1,246,161               1,246,161
                                 For Resources Innovation
                                 (13099-2-Te)

FNS             05/11/01     16. NSLP Food Service                                  3,572,137               3,572,137
                                 Management Companies
                                 (27601-12-KC)

                09/06/01     17. NSLP – FSMCs                                       3,537,912                 236,749
                                 (27601-24-Ch)*

                11/21/01     18. CACFP – Wildwood, Inc.                            36,895,611              36,895,611
                                 Phase II (27010-6-KC)

                03/29/02     19. NSLP – Chartwell’s FSMC                              307,711                 307,711
                                 (27601-13-KC)

FSA             07/30/01     20. 1999 Crop Disaster Program                           950,891                 950,891
                                 (03099-42-KC)




30
                                                                                Amount With
                                                                 Total Value      No Mgmt.
                                                                 at Issuance      Decision
Agency            Date Issued            Title of Report         (in dollars)    (in dollars)


FSIS          06/21/00   21. Implementation of the Hazard                 0              0
                             Analysis and Critical Control
                             Point System (24001-3-At)

              09/30/02   22. Overtime Controls (24099-4-At)               0              0

              09/30/03   23. Oversight of Production                      0              0
                             Process and Recall at ConAgra
                             Plant (Establishment 969)
                             (24601-2-KC)

Multiagency   09/30/03   24. Implementation of Agricultural               0              0
                             Risk Protection Act (50099-12-KC)

              09/30/03   25. 2000 Crop Disaster Program             20,049          19,649
                             (50099-15-KC)

              02/23/04   26. Homeland Security Issues                     0              0
                             for USDA Grain and
                             Commodities Inventories
                             (50099-13-KC)

              03/04/04   27. Controls Over Plant Variety                  0              0
                             and Germplasm Storage
                             (50601-6-Te)

              03/08/04   28. Followup Review on the                       0              0
                             Security of Biohazardous
                             Material at USDA Laboratories
                             (50601-10-At)

              03/24/04   29. Controls Over Chemicals                      0              0
                             and Radioactive Materials
                             at USDA Facilities (50601-9-At)

RBS           01/28/02   30. Lender Servicing of                 1,536,060       1,536,060
                             Business and Industry (B&I)
                             Guaranteed Loans,
                             Florida (34601-3-At)

              01/10/03   31. Lender Servicing of B&I             3,766,908       3,766,908
                             Guaranteed Loans in
                             Georgia (34601-4-At)

              08/27/03   32. RD – Lender Servicing of B&I        9,145,549         224,951
                             Guaranteed Loans in
                             Georgia (34601-5-At)

                                                                                          31
                                                                         Amount With
                                                          Total Value      No Mgmt.
                                                          at Issuance      Decision
Agency       Date Issued            Title of Report       (in dollars)    (in dollars)


         09/30/03   33. RD – Liquidation of B&I             818,121         178,323
                        Guaranteed Loans
                        (34601-8-SF)

         09/30/03   34. Request Audit of B&I              5,585,136       1,382,301
                        Loan in Louisiana (34099-5-Te)

RHS      01/08/99   35. RRH Program – Dujardin              195,694         195,694
                        Property Management, Inc.,
                        Everett, WA (04801-5-SF)

         05/25/00   36. RRH – Nationwide Initiative       4,922,879       4,807,001
                        in MO – Lockwood Management
                        Co., St. Louis, MO (04801-2-KC)

         09/28/01   37. RRH Program Insurance               596,665          79,442
                        Expenses, Phase II
                        (04601-4-KC)

         06/26/03   38. RD – RRH Program, Tenant          7,781,635       3,183,305
                        Income Verification,
                        Gainesville, FL (04004-3-At)

RMA      02/28/01   39. FY 2000 FCIC Financial                     0              0
                        Statements (05401-1-HQ)

         03/15/02   40. Monitoring of RMA’s                        0              0
                        Implementation of Manual 14
                        Reviews/Quality Control
                        Review System (05099-14-KC)

         09/30/02   41. Review of Large Insurance         6,998,779       6,998,779
                        Claims for Watermelons
                        (05601-9-Te)

         03/31/04   42. Indemnity Payments to Prune         386,772         171,879
                        Producers In California –
                        Producer D (05099-7-SF)




32
 AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE FOR NEW ENTRIES




1. WS – Aerial Acquisition Procedures                        3. Federal Assistance Grants to Producers Along
   (33099-1-KC), Issued September 30, 2004                      the Rio Grande In Texas (03099-180-Te), Issued
                                                                September 30, 2004
Management decisions have not been reached for
seven recommendations. We recommended that, if after         Four producers received duplicate payments totaling
consultation with OGC it is determined Wildlife Services     $54,174. We recommended that FSA direct the Texas
(WS) personnel violated appropriations law, disciplinary     Department of Agriculture (TDA) to perform a review for
action be established if appropriate. We also                duplicate payments, recover them, and report the
recommended that APHIS begin disciplinary actions            amounts to OIG. TDA performed two such reviews, and
based on improper requests for ratification of               we are working with FSA to determine the total
unauthorized procurement actions and improper                monetary results of the audit, to include duplicate
payments. In addition, we recommended that WS                payments cited in the report and others identified by
develop policies and procedures specific to WS’ aerial       TDA’s subsequent reviews. We also recommended that
acquisition program, including the establishment of          FSA seek clarification from OGC regarding whether the
management controls to ensure compliance. APHIS              methodology used by TDA to disburse grant assistance
needs to clarify what process will be used to determine      to producers conformed to the law. We need a copy of
whether a lease or buy option best fulfills the mission.     OGC’s opinion and descriptions of FSA’s resultant
We further recommended that WS consult with OGC              corrective actions and timeframes.
regarding whether WS personnel violated the court
injunction limiting distribution or release of information   4. Oversight of the Listeria Outbreak in the
pertaining to cooperative entities.                             Northeastern United States (24601-2-Hy), Issued
                                                                June 9, 2004
2. Philadelphia NSLP Computer Attendance/Meal
   Claim Analysis (27010-31-Hy), Issued June 25,             Management decisions remain for two
   2004                                                      recommendations regarding action plans to ensure that
                                                             recalled product distributed to schools is accounted for
During school years 1999 and 2000, the Philadelphia          and to ensure that the more than 273,000 pounds of
School Food Authority (SFA) did not comply with              recalled product we identified is removed from the
Federal regulations for ensuring the accuracy of school      schools.
meal counts before submission of monthly claims for
reimbursement. The SFA claimed excess, incorrectly           5. Effectiveness Checks for the 2002 Pilgrim’s Pride
categorized, and unapproved meals; we recommended               Recall of Ready-to-Eat Poultry Products (24601-
recovery of $867,424. Three recommendations are                 3-Hy), Issued June 29, 2004
unresolved. Departmental regulations require that a
copy of a bill for collection of amounts owed the            We continue to work with FSIS to reach agreement on
Government, as well as support that the amounts have         acceptable corrective action plans to ensure that
been entered as a receivable on the agency’s                 effectiveness checks receive a second-party review to
accounting records, be provided. However, FNS has an         make certain they are thoroughly completed.
internal instruction that conflicts with this regulation.
FNS is working with OGC to resolve this issue. One           6. Use of Food Safety Information Systems (24601-
recommendation requires a review of the SFA claims              3-Ch), Issued September 30, 2004
after school year 2000 and collection of any additional
overclaims identified; it remains unresolved pending the     Management decisions have not been reached for five
receipt of more detailed implementation information.         recommendations. FSIS needed to provide written
                                                             guidelines to aid its inspectors and supervisors in using
                                                             the available data, and to take action to strengthen its
                                                             existing information systems. Agency officials generally

                                                                                                                    33
concurred but need to provide additional information      9. RMA – Added Land Policy (05099-25-At), Issued
such as draft procedures on the management control           May 21, 2004
process.
                                                          Errors or misinterpretation of RMA yield determination
7. RBS – Value Added Agricultural Product Market          procedures by insurance providers resulted in five
   Development Grant Program (VAPG) (34601-3-             producers receiving excess indemnity payments totaling
   KC), Issued April 23, 2004                             $372,080. Another producer received excessive
                                                          indemnity payment of $22,000 because of an incorrect
VAPG grants totaling $86.4 million for FY’s 2001 to       report of acreage. Insurance providers, in determining
2003 were awarded without regulatory guidance,            crop years 2000 and 2001 actual production history
sufficient management control policies, or internal       (APH) yield for added land units for five producers, did
control procedures. RBS agreed to our findings, but       not consider prior production history and APHs. We
disagreed that most of the corrective actions should be   recommended that RMA require the applicable
placed into regulations, and countered that their         insurance provider to recover the $394,080.
incorporation in supplementary handbooks would be         Management decision has been reached for one of
sufficient. We recommended that RBS obtain a written      three recommendations. Agency officials are reviewing
opinion from OGC to identify the best approach to         insurance providers’ and producers’ records to confirm
implement our recommendations. RBS obtained the           the amount of overpayments.
OGC opinion and incorporated some of OGC’s
guidance, but still needs to fully describe proposed      10. Management and Security of RMA Technology
actions.                                                      Resources (05099-18-KC), Issued June 1, 2004

8. RRH Project Costs in Cairo, IL (04099-143-CH),         Management decisions remain for nine
   Issued September 30, 2004                              recommendations. Our recommendations addressed
                                                          serious internal control weaknesses in the overall
We performed an audit of a project owner and              management and organizational structure for RMA’s IT
management company in Cairo, Illinois, based on the       security and operations. We recommended that RMA
request of the Illinois Rural Development State Office    provide sufficient resources to its new Chief Information
and its concerns over project management. We found        Officer (CIO) to effectively oversee IT security and to
that the management company misused more than             separate the CIO and IT security staff from undue
$164,000 of project funds for personal gain. RHS          influence by production managers. We also
agreed to pursue recovery of the $164,000, foreclose on   recommended that RMA include the material control
the two projects, and debar the individuals of the        weaknesses in its FMFIA report. Other
management company. Criminal and civil actions are        recommendations addressed vulnerabilities, controls
under consideration.                                      over IT operations, the reimbursable agreement with
                                                          FSA, policies and procedures, and background
                                                          investigations. RMA plans aggressive actions by
                                                          prioritizing the recommendations, acting first on those
                                                          that will mitigate the FMFIA material internal control
                                                          weaknesses, and then correcting the remaining flaws in
                                                          its IT environment.




34
 INDICTMENTS AND CONVICTIONS

Between October 1, 2004, and March 31, 2005, OIG             Indictments and Convictions
completed 142 investigations. We referred 74 cases to        October 1, 2004 - March 31, 2005
Federal, State, and local prosecutors for their decision.
                                                             Agency            Indictments          Convictions*
During the reporting period, our investigations led to
102 indictments and 117 convictions. The period of time      AMS                         1                      2
to obtain court action on an indictment varies widely;       APHIS                      12                      9
therefore, the 117 convictions do not necessarily relate     ARS                         5                      1
to the 102 indictments. Fines, recoveries/collections,       FNS                        57                     55
restitutions, claims established, cost avoidance, and        FS                          2                      3
administrative penalties resulting from our investigations   FSA                        15                     27
totaled about $61.8 million.                                 FSIS                        5                      9
                                                             NRCS                        1                      2
The following is a breakdown, by agency, of indictments      RBS                         1                      1
and convictions for the reporting period.                    RHS                         1                      4
                                                             RMA                         2                      4
                                                                                       ___                    ___
                                                             Totals                    102                    117
                                                             *This   category includes pretrial diversions.




                                                                                                                    35
 OFFICE OF INSPECTOR GENERAL HOTLINE

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received 428
complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 1
displays the volume and type of the complaints we
received, and figure 2 displays the disposition of those
complaints.



Figure 1                                                      Figure 2

Hotline Complaints                                            Disposition of Complaints
October 1, 2004, to March 31, 2005                            October 1, 2004, to March 31, 2005
(Total = 428)
                                                                                    Referred to
                    Health/Safety                            Referred to          USDA Agencies
                                             Opinion/
                          2                                FNS for Tracking        for Response     Referred to
                                           Information
                                                                 72                     206        State Agency
                                                67
                                                                                                         1
             Participant
               Fraud
                151




Bribery                                                         Referred to
   1                                                          USDA or Other                          Referred to
                                        Employee               Agencies for       Filed Without
                   Waste/                                                                           OIG Audit or
                                        Misconduct             Information-          Referral-
               Mismanagement                                                                       Investigations
                                            99                No Response          Insufficient
                    108                                                                              for Review
                                                                 Needed            Information           37
                                                                    81                  31




36
 FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
 FOR THE PERIOD OCTOBER 1, 2004, TO MARCH 31, 2005



Number of FOIA/PA Requests Received                 94

Number of FOIA/PA Requests Processed:               98

  Number Granted                           25
  Number Partially Granted                 20
  Number Not Granted                       53

Reasons for Denial:

  No Records Available                     12
  Referred to Other Agencies                7
  Requests Denied in Full (Exemption 7A)   10
  Request Withdrawn                        12
  Fee-Related                               1
  Not a Proper FOIA Request                 0
  Not an Agency Record                      4
  Duplicate Request                         0
  Other                                     7

Requests for OIG Reports From Congress
and Other Government Agencies

  Received                                 17
  Processed                                17


Appeals Processed                                   2

  Appeals Completely Upheld                1
  Appeals Partially Reversed               1
  Appeals Completely Reversed              0
  Appeals Requests Withdrawn               0


Number of OIG Reports/Documents                     25
Released in Response to Requests

NOTE: A request may involve more than one report.

During this 6-month period, 40 audit reports were
posted to the Internet at the OIG Web site:
www.usda.gov/oig.




                                                                   37
Abbreviations of Organizations


AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
CBP      U.S. Customs and Border Protection
CCC      Commodity Credit Corporation
CDFA     California Department of Food and Agriculture
CR       Civil Rights
CSREES   Cooperative State Research, Education, and Extension Service
DHS      U.S. Department of Homeland Security
DOC      U.S. Department of Commerce
FBI      Federal Bureau of Investigation
FCIC     Federal Crop Insurance Corporation
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GAO      U.S. Government Accountability Office
GIPSA    Grain Inspection, Packers and Stockyards Administration
NFC      National Finance Center
NRCS     Natural Resources Conservation Service
OCFO     Office of the Chief Financial Officer
OCIO     Office of the Chief Information Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
OSTP     Office of Science and Technology Policy
RBS      Rural Business-Cooperative Service
RD       Rural Development
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
TDA      Texas Department of Agriculture
USDA     U.S. Department of Agriculture
WS       Wildlife Services




38
39
40
   Key OIG Accomplishments in This Reporting Period
RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued                                            37
Management Decisions Made
 Number of Reports                                        40
 Number of Recommendations                               336
Total Dollar Impact (Millions)
 Of Management-Decided Reports                         $16.3
 Questioned/Unsupported Costs             $7.7
 Funds To Be Put to Better Use            $8.6

SUMMARY OF INVESTIGATIVE ACTIVITIES
Reports Issued                                           142
Impact of Investigations
 Indictments                                             102
 Convictions                                            117
 Arrests                                                 150
Total Dollar Impact (Millions)                         $61.8
Administrative Sanctions                                 414

EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT
AGREED TO DURING THIS REPORTING PERIOD (168 TOTAL)

  •   The FS agreed to develop a consolidated tracking system to include all recommen-
      dations and action items related to firefighter safety.
  •   APHIS agreed to establish a management control process to ensure that all hazard-
      ous materials inventory inspections are timely completed and results are accurately
      and fully reported.
  •   APHIS agreed to ensure that all security issues identified during formal risk assess-
      ments of its aircraft are appropriately addressed and that effective security measures
      are implemented.
  •   After our audit found that the disparate application of MILC production caps led to
      payment inequities, FSA agreed that language should be submitted for inclusion in
      proposed legislation to preclude such inequities in the future.
The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic information,
political beliefs, reprisal, or because all or part of an individual’s income is derived from any public assistance program. (Not all prohibited
bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large
print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice and TDD). To file a complaint of discrimination, write
to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call (800) 795–3272 (voice) or
(202) 720–6382 (TDD). USDA is an equal opportunity provider and employer.
